<html>
<title> - THE IMPACT OF SEQUESTRATION ON HOMELAND SECURITY: SCARE TACTICS OR POSSIBLE THREAT?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  THE IMPACT OF SEQUESTRATION ON HOMELAND SECURITY: SCARE TACTICS OR 
                            POSSIBLE THREAT?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2013

                               __________

                           Serial No. 113-10

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
82-584                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Keith J. Rothfus, Pennsylvania       Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
                      Ryan Consaul, Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Mr. Rafael Borras, Under Secretary for Management, Management 
  Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................    13
Mr. Thomas S. Winkowski, Deputy Commissioner, Performing the 
  Duties of the Commissioner, U.S. Customs and Border Protection, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    21
  Joint Prepared Statement.......................................    13
Mr. John Halinski, Deputy Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    22
  Joint Prepared Statement.......................................    13
Mr. Daniel H. Ragsdale, Deputy Director, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    24
  Joint Prepared Statement.......................................    13

                                Panel II

Mr. Brandon Judd, President, National Border Patrol Council:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47

                             For the Record

The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Statement of Colleen Kelley, National President, National 
    Treasury Employees Union.....................................    50


  THE IMPACT OF SEQUESTRATION ON HOMELAND SECURITY: SCARE TACTICS OR 
                            POSSIBLE THREAT?

                              ----------                              


                         Friday, April 12, 2013

             U.S. House of Representatives,
          Subcommittee on Oversight and Management 
                                        Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Rothfus, Hudson, Daines, 
Payne, O'Rourke, and Thompson (ex officio).
    Mr. Duncan. I think we have musical chairs going on down 
there, but I think we have got it set, so I will go ahead and 
call the meeting to order.
    Before I begin my opening statement, I would like to again 
express the subcommittee's frustration with DHS over not 
providing us written testimony on time. I find it troublesome 
that the Department could not submit its testimony in 
accordance with the committee rules, especially since its 
invitation was sent on March 22. That was 21 days ago. The 
witness on the second panel submitted his statement in 
accordance with committee rules, yet his invitation was not 
sent until April 8. Committee rules are here for a reason. We 
expect them to be followed. If the Department has a problem 
following rules, I would be happy to discuss this with the 
Secretary.
    The Committee on Homeland Security, Subcommittee on 
Oversight and Management Efficiency will come to order. The 
purpose of this hearing is to determine if sequestration will 
in fact hinder our homeland security, or will it help to 
address out of control spending?
    I now recognize myself for an opening statement. Airport 
screening lines that are hours long, borders vulnerable to 
illegal aliens, stalled commerce at our border crossings. These 
are just some of the devastating impacts that the 
administration said were inevitable because of the 5 percent 
budget cut for DHS due to sequestration.
    On March 1, 2013, sequestration took effect, resulting in a 
series of automatic across-the-board spending cuts for the 
Federal Government. With the National debt growing by the 
second, it is time the United States Government take a hard 
look at its out-of-control spending.
    If properly planned, budget cuts due to sequestration 
should not dangerously compromise our homeland security. 
Doomsday rhetoric to put fear into the American people is not 
the way our Government should operate, especially now that most 
of these predictions have not come to fruition.
    In a March 4, 2013, letter to the Governor of my home 
State, Nikki Haley, Secretary Napolitano stated, average wait 
times to clear Customs will begin to increase by up to 50 
percent. Our biggest land ports may face wait times of up to 5 
hours or more.
    Less than a month after the South Carolina delegation 
received a copy of this letter, DHS has now backtracked. 
Customs and Border Protection is postponing or reevaluating its 
warned mass furloughs. Multimillion-dollar grants are still 
been awarded by FEMA. TSA says that it will be implementing a 
hiring freeze, but the usajobs.gov still list openings for 
airport security personnel throughout the country. In fact, TSA 
employs about 2,000 more security personnel today than it did 
in 2008, a time that air travel was much higher than it is 
today. It seems the reports of disaster are greatly exaggerated 
by the Department.
    Just to be clear, the Immigration and Customs Enforcement 
release of 2,000 illegal aliens was not a planning decision to 
offset the effects of sequestration. Not only was this action 
done in advance of sequestration, I believe it was done 
purposely as another tactic to scare Congress and the American 
people. DHS should administer sequestration in a thoughtful 
manner, without jeopardizing our safety.
    Although through sequestration, each budget account will 
have to be cut equally, the Department does have flexibility 
within these accounts to reduce spending to programs with lower 
priority; not to mention components may carryover tens of 
millions of dollars each year, which is never talked about, but 
which may also help the DHS offset current spending reductions.
    Most recently, we have also heard much talk from DHS on 
implementing security in a risk-based way, yet the Department 
has for the most part shied away from implementing sequester 
with a risk-based approach. Instead, some of the components 
plans seek to share the pain first and foremost. This approach 
is nonsensical, especially when it means allowing dangerous 
criminal aliens awaiting deportation back on the streets and 
holes in our border security to remain unplugged. Why not 
consider a risk-based approach, where our greatest risk and 
vital travel locations are mitigated to the maximum extent 
possible?
    As pointed out in this subcommittee's first hearing back in 
February, the Department has many wasteful and duplicative 
programs that it can choose from to reduce spending, whether 
through its procurement and acquisition process or through its 
grants management.
    Recently Senator Tom Coburn also reminded us that DHS 
spends taxpayer dollars for thousands of man-hours of work that 
are never performed through various types of administrative and 
other leave.
    In advance of sequestration, the Department had adequate 
time to properly plan so that its core missions and operations 
would not be negatively impacted.
    Now, let me be clear: Sequestration was the result of the 
August 2011 debt ceiling deal known as the Budget Control Act. 
August 2011. Let's see. That was 18 months prior to the 
implementation of sequester. I know that Government agencies 
hoped that sequestration wouldn't happen. In fact, for months, 
the administration used hope as its strategy. Hope may be a 
nice campaign slogan, but it is a sorry management strategy.
    Sequestration is yet another example of DHS failing to 
effectively communicate to the American people. All the 
contradictions make your head spin. DHS has said no amount of 
planning would mitigate the effects of sequestration, but 
planning is now taking place to do just that.
    The administration opposed any flexibility to dull some of 
the pain, yet DHS is considering reprogramming request. I hope 
the Department can clarify what to date has been complete 
confusion for the American people.
    Finally, I believe that our men and women on the front 
lines protecting our homeland are focused and resourceful 
individuals that can rise to the challenge of protecting the 
homeland within this budgetary climate.
    The Department must ensure that our boots on the ground are 
provided the necessary resources to complete their mission. If 
that means cutting inefficient and wasteful programs, I welcome 
those initiatives.
    Hard-working American families have had to make cuts to 
their budget. Even my Congressional office was able to cut 15 
percent of its budget on top of the mandatory cuts by operating 
our office like a business. DHS and Government as a whole 
should take a page from the private sector when implementing 
cuts due to sequester.
    I appreciate the participation of our distinguished 
witnesses here today. I am eager to hear about how the 
Department's sequestration plan and efforts are coming and our 
current state of homeland security.
    It is critical in this time of financial tightening that we 
make sure that our infrastructure is protected, that our 
borders and airports are secure and that we are able to fully 
support the American people without unnecessary spending.
    [The statement of Chairman Duncan follows:]
                   Statement of Chairman Jeff Duncan
                             April 12, 2013
    Airport screening lines that are hours long, borders vulnerable to 
illegal aliens, stalled commerce at our border crossings; these are 
just some of the devastating impacts that the administration said were 
inevitable because of the 5% budget cut for DHS due to sequestration. 
On March 1, 2013 sequestration took effect, resulting in a series of 
automatic, across-the-board spending cuts for the Federal Government. 
With a National debt growing by the second, it's time that the U.S. 
Government take a hard look at its out-of-control spending.
    If properly planned, budget cuts, due to sequestration, should not 
dangerously compromise our homeland security. Doomsday rhetoric to put 
fear into the American people is not the way our Government should 
operate--especially now that most of these predictions have not come to 
fruition. In a March 4, 2013 letter to the Governor of my home State of 
South Carolina, Secretary Napolitano stated: ``average wait times to 
clear customs will begin to increase by up to 50 percent . . . our 
biggest land ports may face waits of up to 5 hours or more.''
    Less than a month after the South Carolina delegation received this 
letter, DHS has now backtracked. Customs and Border Protection is 
postponing and re-evaluating its warned mass furloughs. Multi-million 
dollar grants are still being awarded by FEMA. TSA says it will be 
implementing a hiring freeze, but USAJOBS.gov still lists openings for 
airport security personnel throughout the country. In fact, TSA employs 
about 2,000 more security personnel now than it did in 2008, a time 
that air travel was much higher. It seems the reports of disaster are 
greatly exaggerated.
    And, just to be clear, the Immigration and Customs Enforcement 
release of 2,000 illegal aliens was not a planning decision to offset 
the effects of sequestration. Not only was this action done in advance 
of sequestration, I believe it was done purposely as another tactic to 
scare Congress and the American public. DHS should administer 
sequestration in a thoughtful manner, without jeopardizing our safety.
    Although through sequestration each budget account will have to be 
cut equally, the Department does have flexibility within those accounts 
to reduce spending to programs with lower priority. Not to mention, 
components may carry over tens of millions of dollars each year, which 
is never talked about, but which may also help the DHS offset current 
spending reductions.
    Most recently, we have also heard much talk from DHS on 
implementing security in a ``risk-based'' way. Yet the Department has, 
for the most part, shied away from implementing sequester with a risk-
based approach. Instead, some of the components' plans seek to ``share 
the pain'' first and foremost. This approach is nonsensical; especially 
when it means allowing dangerous criminal aliens awaiting deportation 
back on the streets and holes in our border security unplugged. Why not 
consider a risk-based approach where our greatest risks and vital 
travel locations are mitigated to the maximum extent possible?
    And as pointed out in this subcommittee's first hearing in 
February, the Department has many wasteful and duplicative programs it 
can choose from to reduce spending, whether through its procurement and 
acquisition process or through its grants management. Recently, Senator 
Tom Coburn also reminded us that DHS spends taxpayer dollars for 
thousands of man-hours of work that are never performed through various 
types of administrative and other leave.
    In advance of sequestration, the Department had adequate time to 
properly plan so that its core missions and operations would not be 
negatively impacted. Let me be clear: Sequestration was the result of 
the August 2011 Debt Ceiling deal known as the Budget Control Act. 
August 2011. Let's see--that was 18 months prior to the implementation 
of the sequester. I know that Government agencies hoped that 
sequestration wouldn't happen. In fact, for months, the administration 
used ``hope'' as its strategy.
    Hope may be a nice campaign slogan but is a sorry management 
strategy.
    Sequestration is yet another example of DHS failing to effectively 
communicate to the American people. All the contradictions make your 
head spin. DHS said no amount of planning would mitigate the effects of 
sequestration. But planning is now taking place to do just that. The 
administration also opposed any flexibility to ``dull some of the 
pain.'' Yet DHS is considering reprogramming requests. I hope the 
Department can clarify what to date has been complete confusion for the 
American people.
    Finally, I believe that our men and women, on the front lines, 
protecting our homeland are focused and resourceful individuals that 
can rise to the challenge of protecting the homeland within this 
budgetary climate. The Department must ensure that our boots on the 
ground are provided the necessary resources to complete their mission. 
If that means cutting inefficient, wasteful programs, I welcome those 
initiatives. Hard-working American families have had to make cuts to 
their budgets. Even my Congressional office was able to cut 15% of its 
budget on top of mandatory cuts by operating our office like a 
business.
    DHS should take a page from the private sector when implementing 
cuts due to sequester.
    I appreciate the participation of our distinguished witnesses here 
today and am eager to hear about the Department's sequestration 
planning efforts, and our current state of homeland security. It is 
critical in this time of financial tightening, that we make sure that 
our infrastructure is protected, that our borders and airports are 
secure, and that we are able to fully support the American people 
without unnecessary spending.

    Mr. Duncan. The Chairman will now recognize the Ranking 
Member of the subcommittee, the gentleman from Arizona, Mr. 
Barber, for any statement that he may have.
    Mr. Barber. Well, thank you, Mr. Chairman.
    I welcome the witnesses. Thank you for being with us this 
morning. This is a very critical issue that we are examining 
today, and I look forward to your testimony and the opportunity 
to question all of the witnesses in regard to, I think, one of 
the most important questions that we can face as we are dealing 
with sequestration, and that is, what will be and what is going 
to be the impact of sequestration on our security, the border 
security and on the free flow and expedited flow of legal 
commercial traffic through our ports?
    On March 1, 2013, President Obama signed an order of 
sequestration as required by the Budget Control Act. The order 
required every Federal Government agency, including DHS, to cut 
its budget by 5 percent in every single program, project, or 
activity for 2013. The beginning of sequestration was the 
failure of the supercommittee to reach a deal on the debt 
ceiling, and presumably, I guess we thought, that sequestration 
would force an agreement, and obviously, it did not.
    Now, 43 days into sequestration, we are here today to 
answer the question: What is the impact of sequestration on the 
Department of Homeland Security and the security of the 
homeland? To some degree, it is too early to tell. We are still 
awaiting the final plan from the Department of Homeland 
Security on how they will implement what I believe are 
irresponsible cuts mandated by sequestration. There are more 
prudent ways. We must balance our budget, but there are more 
prudent ways to do it.
    Without a doubt, the impact will be negative, in my mind. 
To me, it is not a question of if sequestration will hinder our 
National security and our ability to respond to the real 
threats to the United States at our border and across country, 
but rather a question of the degree to which it will do so. My 
fear is that the real measure of sequestration's impact has yet 
to be seen and may not be fully known until it is too late and 
we see a tremendous rollback of border security.
    What I do know is that the cuts mandated by sequester may 
well cause the safety of border area residents and the security 
of the Nation to be severely compromised. We have made 
improvements in securing our borders; there is no question 
about that, but when I look at the traffic through my district, 
where we seize 50 percent of the pounds of drugs in the 
country, where ranchers and their families are unsafe on their 
land every single day, I say we have more to do. As a 
representative of the district with over 80 miles of shared 
border between Arizona and Mexico, I am greatly concerned about 
how we are going to continue our progress under sequestration.
    The U.S. Customs and Border Protection received enough 
funding in the recently-passed continuing resolution to delay 
the immediate furlough and elimination of overtime for front-
line Border Security personnel and Customs agents. However, 
according to CBP, this may only serve as a temporary relief, 
and cuts to overtime and the future furlough of both Border 
Patrol Agents and CBP Officers at the ports are still possible. 
To me, this is unacceptable.
    More efforts are being made to secure our border, and the 
Border Patrol is better staffed today than ever in its 88-year 
history. These investments in our border are being made because 
they are necessary. We have to protect the homeland.
    In recent years, we have made progress with respect to 
apprehensions, interdictions, and illegal immigration attempts, 
and over the past 3 years, the Department has seized 75 percent 
more currency, 41 percent more drugs, 159 percent more weapons 
along the Southwest Border as compared to fiscal years 2006 to 
2008, but there is still more work to be done.
    We cannot turn back the clock on border security efforts. 
My constituents and the American people deserve better. They 
deserve safety in their home and on their land. To my way of 
thinking, we should not cede 1 inch of American soil to the 
cartels. To roll back these efforts now would create a window 
of opportunity for criminals and terrorists to cross our 
borders.
    I am aware that sequestration leaves little flexibility on 
how an agency applies its budgets or cuts. However, cutting 
Border Control and Customs agents' overtime and furloughs and 
Border Patrol Agents' work hours should only come as a last 
resort, and every measure should be taken to prevent this from 
happening. I join with the Chairman in saying we have to find 
other ways to make those cuts in homeland security than on the 
front lines of border security.
    As Members of Congress, we play a vital role in ensuring 
that the necessary resources are in place to keep our country 
safe and our people from harm. As Members of the Committee on 
Homeland Security, we must carry out this mission by ensuring 
that the Department has the resources it needs to secure our 
borders, protect our Nation's communication and information 
infrastructure, and take every conceivable measure to protect 
the homeland.
    This cannot be achieved, I believe, at the same time the 
sequestration forces reductions in staffing levels Nationally, 
and specifically on the Southwest Border and in my district. 
Proposed furloughs and overtime would reduce the force of 
Border Patrol Agents on the ground by the equivalent loss of 
nearly 25 percent of the workforce. I ask the Members of this 
subcommittee and the witnesses giving testimony today: How do 
we maintain, how do we continue to improve border security in 
our Nation with those types of personnel losses?
    To my understanding, the Department is looking at ways in 
which it can move money around, and I urge the Department to 
quickly bring those recommendations to the Congress so that we 
can improve them, hopefully, if they are agreeable to us and 
actually make sure that our Border Patrol Agents and our 
Customs agents at the ports are properly staffed so that we can 
protect our homeland and expedite the free flow of commercial, 
legal commercial traffic.
    I yield back.
    Thank you, Mr. Chairman.
    [The statement of Ranking Member Barber follows:]
                 Statement of Ranking Member Ron Barber
                             April 12, 2013
    On March 1, 2013, President Obama signed an Order of Sequestration 
as required by the Budget Control Act. The Order required every Federal 
Government agency, including the Department of Homeland Security, to 
cut its budget by 5% in every single program, project or activity, for 
2013.
    The genesis of sequestration was the failure of the Super Committee 
to reach a deal on the debt ceiling.
    Presumably, the threat of sequestration would force an agreement. 
It did not.
    Now, 43 days into sequestration, we are here today to answer the 
question: What is the impact of sequestration on DHS and homeland 
security?
    To some degree it's too early to tell. We are still awaiting a 
final plan from DHS on how they will implement the irresponsible cuts 
mandated by sequestration.
    But without a doubt, the impact will be negative. To me, it is not 
a question of if sequestration will hinder our National security and 
our ability to respond to the real threats to the United States at our 
border and across the country, but rather a question of the degree to 
which it will do so.
    My fear is that the real measure of sequestration's impact has yet 
to be seen and may not be fully known until it's too late and we see a 
tremendous roll-back of security at our border.
    What I do know is that the cuts mandated by the sequester may well 
cause the safety of border-area residents and security of the Nation to 
be severely compromised.
    According to Secretary Napolitano, the sequester will result in 
``diminished capability and capacity to detect and interdict illicit 
activity along Arizona's border with Mexico.''
    As the representative of a District with over 80 miles of shared 
border between Arizona and Mexico, this causes me grave concern.
    Fortunately, the U.S. Customs and Border Protection (CBP) received 
enough funding in the recently-passed Continuing Resolution to delay 
the immediate furlough and elimination of overtime for front-line 
border security personnel.
    However, according to CBP, this may only serve as temporary relief 
and cuts to overtime and the future furlough of both Border Patrol 
Agents and CBP Officers are still possible.
    This is unacceptable.
    More efforts are being made to secure our border and the Border 
Patrol is better staffed today than at any time during its 88-year 
history. And these investments in our border are being made because 
they are necessary.
    In recent years we have made progress with respect to 
apprehensions, interdictions, and illegal immigration attempts.
    Over the past 3 years, the Department has seized 74 percent more 
currency, 41 percent more drugs, and 159 percent more weapons along the 
Southwest Border as compared to fiscal years 2006-2008.
    But there is much more work ahead. We cannot turn back the clock on 
border security efforts. My constituents and the American public 
deserve better, they deserve safety in their homes and on their land.
    To roll back these efforts now would create windows of opportunity 
for criminals and terrorists to cross our borders.
    I am aware that sequestration leaves little flexibility in how an 
agency applies cuts.
    However, cutting agents' overtime and reducing their work hours 
should only come as the last resort and every measure should be taken 
to prevent this from happening.
    As Members of Congress we play a vital role in ensuring that the 
necessary resources are in place to keep our country safe from harm.
    As Members of the Committee on Homeland Security, we must carry out 
this mission by ensuring that the Department has the resources it needs 
to secure our borders, protect our Nation's communication and 
information infrastructure, and take every conceivable measure to 
protect the homeland.
    This cannot be achieved at the same time that sequestration forces 
reductions in staffing levels Nationally, and specifically on the 
Southwest Border and in my district.
    Proposed furloughs and overtime would reduce the force of Border 
Patrol Agents on the ground by the equivalent of a loss of nearly 25 
percent of the work force. I ask the Members of this subcommittee and 
the witnesses giving testimony today: How do we maintain and continue 
to improve the security of our border and our Nation with those types 
of personnel losses?
    Today I am honored to have with us Brandon Judd, the National 
Border Patrol Union President to speak to this very point. Brandon was 
an agent in the Tucson sector, my district, and can speak specifically 
to the impacts of these potential cuts.
    His members, our Border Patrol Agents, are facing potential cuts in 
salary of up to 40 percent. What family can endure those levels of 
cuts? And what law enforcement agency can survive a nearly 25 percent 
cut in force--not to mention the immeasurable impact on agent morale--
while maintaining and improving security levels?
    Our agents rely on this overtime. Our agents' families rely on this 
overtime. Cutting our agents' and their families livelihoods undermines 
morale and our security.
    I thank Brandon for being here with us today. This is an incredibly 
important topic and one that deserves the full attention of Congress.

    Mr. Duncan. Thank the gentleman from Arizona.
    The Chairman will now recognize the Ranking Minority Member 
of the full committee, the gentleman from Mississippi, Mr. 
Thompson, for any statement that he may have.
    Mr. Thompson. Thank you, Chairman Duncan, for holding 
today's hearing on an issue that is vital to the Members of 
this committee. Today we will hear from the Department of 
Homeland Security and three of its component agencies on how 
the Department has been affected by sequestration of its budget 
and its plans for going forward. We will also hear from the 
National Border Patrol Council on how our front-line border 
personnel have been affected.
    I would like to state at the outset that on August 1, 2011, 
I, along with 161 of my colleagues, voted no on the Budget 
Control Act, which contained sequestration provisions that went 
into effect on March 1, 2013. I maintain my disagreement with 
this harsh measure. I agree that steps should be taken to 
reduce the Federal deficit; however, a more common-sense 
approach that would allow agencies the flexibility to reduce 
spending in a more thoughtful manner would be a far better 
alternative than sequestration.
    Pursuant to the sequester, Federal agencies were hit with a 
5 percent across-the-board cut on every program, project, or 
activity under its responsibility and control; 5 percent may 
not seem large, but when converted to dollars, it is clear that 
the sequester will require the Federal Government to operate in 
a diminished capacity. For example, Departmental management and 
operations is expected to be cut by $24 million. Operational 
expenses for the United States Secret Service, which is 
responsible for protecting the President of the United States, 
the White House and visiting dignitaries, is expected to 
receive a cut of $84 million. Federal Air Marshals, the last 
line of defense against those who seek to disrupt domestic 
flights through criminal or terrorist actions will be slashed 
by $49 million and are expected to remain on a hiring freeze. 
Aviation security as a whole will receive over $270 million in 
reductions. Furthermore, the U.S. Customs and Border Protection 
is expected to receive cuts totaling approximately $512 
million, and its employees appear to be the hardest hit by 
these reductions based on the threatened loss of overtime 
compensation.
    These are not scare tactics. These are real numbers 
affecting real people that jeopardize the safety and security 
of the United States of America. It is unfortunate that 
Congress was not able to reach a compromise on the debt 
ceiling. It is likewise unfortunate that years of haphazard 
Government spending sparked by two wars and an uptick in 
homeland security and defense-related contracts added to the 
debt the United States carries. However, it is fundamentally 
unfair to send hardworking Federal workers home on furloughs, 
expecting these same hardworking employees to work overtime 
without being adequately compensated for doing so, and 
implementing hiring freezes resulting in overworked, 
overstressed Federal employees to become even more overworked 
and overstressed with no relief in sight, yet that is exactly 
the situation the sequester has created. These cuts come on top 
of Federal pay freezes that have been in place for almost 2 
years.
    In addition to impact on Federal employees, I am deeply 
concerned with the effect sequester will have on security and 
its potential to place our Nation at greater risk for a 
terrorist attack. This concern goes beyond longer lines at the 
airports and ports of entries, to increased time frame for 
security clearances, reduction in cybersecurity personnel, and 
less training for those operating at the heart of our security 
apparatus.
    There are others who share my concern. The Director of 
National Intelligence stated that the sequester is reminiscent 
of budget cuts that hampered intelligence operation in the 
1990s, and its impact will only be noticed when it is a 
failure. The Joint Chiefs of Staff stated, ``in my personal 
military judgment formed over 38 years, we are living in the 
most dangerous time in my lifetime right now, and I think 
sequestration would be completely oblivious to that and 
counterproductive.'' These men are not crying wolf.
    I stand in agreement with the notion that the Secretary 
overstated the immediate impact of sequestration. Whether these 
statements were based on information she had at the time the 
statements were made or a product of bad planning and 
projections by the Department's leadership, the fact is the 
statement did not accurately represent what occurred in the 
immediate aftermath of the order being signed by the President.
    We have a choice. We can spend our time rehashing what 
happened and what did not happen compared to what was 
predicted, or we can focus on the best way to manage the cuts 
that have now become the law and in effect to minimize the risk 
to our security. I hope we choose the latter.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 12, 2013
    Today, we will hear from the Department of Homeland Security and 
three of its component agencies on how the Department has been affected 
by the sequestration of its budget and its plans for going forward.
    We will also hear from the National Border Patrol Council on how 
our front-line border personnel have been affected.
    I would like to state at the outset, that on August 1, 2011, I, 
along with 161 of my colleagues voted NO on the Budget Control Act, 
which contained sequestration provisions that went into effect on March 
1, 2013.
    I maintain my disagreement with this harsh measure.
    I agree that steps should be taken to reduce the Federal deficit.
    However, a more common-sense approach that would allow agencies the 
flexibility to reduce spending in a more thoughtful manner would be a 
far better alternative than sequestration.
    Pursuant to the sequester, Federal agencies were hit with a 5% 
across-the-board cut on every program, project, or activity under its 
responsibility and control.
    Five percent may not seem large but when converted to dollars it is 
clear that the sequester will require the Federal Government to operate 
in a diminished capacity.
    For example, Departmental Management and Operations is expected to 
be cut by $24 million.
    Operating expenses for the United States Secret Service, which is 
responsible for protecting the President of the United States, the 
White House, and visiting dignitaries, is expected to receive a cut of 
$84 million.
    Federal Air Marshals, the last line of defense against those who 
seek to disrupt domestic flights through criminal or terrorist actions, 
will be slashed by $49 million and are expected to remain on a hiring 
freeze.
    Aviation security as a whole will receive over $270 million in 
reductions.
    Furthermore, the U.S. Customs and Border Protection is expected to 
receive cuts totaling approximately $512 million and its employees 
appear to be the hardest hit by these reductions based on the 
threatened loss of overtime compensation.
    These are not scare tactics. These are real numbers affecting real 
people that jeopardize the safety and security of the United States of 
America.
    It is unfortunate that Congress was not able to reach a compromise 
on the debt ceiling.
    It is likewise unfortunate that years of haphazard Government 
spending sparked by two wars and an uptick in homeland security and 
defense-related contracts added to the debt the United States carries.
    However, it is fundamentally unfair to send hard-working Federal 
workers home on furlough; expect these same hard-working employees to 
work overtime without being adequately compensated for doing so; and 
implementing hiring freezes resulting in overworked, overstressed 
Federal employees to become even more overworked and overstressed with 
no relief in sight.
    Yet, that is exactly the situation the sequester has created. And 
these cuts come on top of Federal pay freezes that have been in place 
for almost 2 years.
    In addition to its impact on Federal employees, I am deeply 
concerned with the affect the sequester will have on security and its 
potential to place our Nation at greater risk for a terrorist attack.
    This concern goes beyond longer lines at airports and ports of 
entries to increased time frames for security clearances, reductions in 
cybersecurity personnel and less training for those operating at the 
heart of our security apparatus.
    There are others who share my concern.
    The Director of National Intelligence stated that the sequester is 
reminiscent of budget cuts that hampered intelligence operations in the 
1990s and its impact will only be noticed when we have a failure.
    The Chairman of the Joint Chiefs of Staff stated that: ``In my 
personal military judgment, formed over 38 years, we are living in the 
most dangerous time in my lifetime right now, and I think sequestration 
would be completely oblivious to that, and counterproductive.''
    These men are not crying wolf.
    I stand in agreement with the notion that the Secretary overstated 
the immediate impact of the sequestration.
    Whether these statements were based on information she had at the 
time the statements was made or a product of bad planning and 
projections by the Department's leadership, the fact is the statements 
did not accurately represent what occurred in the immediate aftermath 
of the Order being signed as predicted.
    We have a choice.
    We can spend our time rehashing what happened and what did not 
happen compared to what was predicted or we can focus on the best way 
to manage the cuts that have now become the law in an effort to 
minimize the risk to our security.
    I hope that we choose the latter.

    Mr. Duncan. I thank the Ranking Member for participating 
today, and remind him that I, too, voted no in August 2011 on 
the debt ceiling deal because I felt like we could be smarter 
as Americans in making the cuts that were going to be 
necessary.
    So other Members--thank you for being here. Thanks for your 
statement. Other Members of the subcommittee are reminded that 
opening statements may be submitted for the record.
    We are pleased to have two very distinguished panels of 
witnesses before us today on this important topic.
    Now for the first panel. Mr. Rafael Borras is under 
secretary for management and chief acquisition officer for the 
Department of Homeland Security. Mr. Borras oversees management 
of the Department of Homeland Security's nearly $60 billion 
budget. Mr. Borras is responsible for directing human capital 
resources and personnel programs for the Department's 
employees, administers control for the Department's information 
technology enterprise, and is responsible for oversight of the 
Department's facilities, property, equipment, and resources, as 
well as the security for personnel information technology 
facilities and resources. Mr. Borras has more than 30 years of 
management experience, including 20 years in Federal and city 
government and 10 years in the private sector.
    Mr. Thomas Winkowski is the Deputy Commissioner of U.S. 
Customs and Border Protection, performing the duties of the 
Commissioner. In March 2013, Mr. Winkowski became responsible 
for overseeing the daily operations of CBP's 60,000 employees 
and managing an operating budget of $11.5 billion. Most 
recently, he served as CBP's second-in-command as the acting 
chief operating officer since January 2012. Mr. Winkowski began 
in the U.S. Customs Service in 1975 as a student. He continued 
to serve the agency in various positions, including Customs 
inspector, director of the port of Miami, Miami's field 
probations director, and most recently as the assistant 
commissioner in the Office of Field Operations.
    Mr. John Halinski currently serves as a deputy 
administrator for TSA, the Transportation Security 
Administration. Mr. Halinski joined TSA in 2004, served as 
assistant administrator in the Office of Global Strategies 
before assuming his role as deputy administrator. As assistant 
administrator from 2010 to 2012, Mr. Halinski was responsible 
for enhancing international transportation security through 
compliance, outreach and engagement and capacity development. 
Previously, Mr. Halinski served 25 years in the Marine Corps in 
a variety of positions.
    Thank you for your service to our Nation, sir.
    Mr. Daniel Ragsdale is the deputy director for the U.S. 
Immigration and Customs Enforcement, or ICE. He is responsible 
for an annual budget of almost $6 billion, more than 20,000 
employees assigned to more than 400 offices, including 70 
international offices and U.S. embassies worldwide. Mr. 
Ragsdale is also the agency's chief management officer, 
overseeing the Office of Management and Administration. The 
Office of Management and Administration directs, plans, 
coordinates the core mission, support functions and programs at 
ICE, such as finance, information technology, procurement and 
human capital, among other areas.
    I thank this distinguished panel for being here today. This 
is a very important topic. The Chairman will now recognize 
Under Secretary Borras to testify.

  STATEMENT OF RAFAEL BORRAS, UNDER SECRETARY FOR MANAGEMENT, 
  MANAGEMENT DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Borras. Thank you, Mr. Chairman, Ranking Member, and 
Members of the committee. Thank you for the opportunity to 
appear before you to discuss sequestration and the important 
planning that has been undertaken to date by the Department of 
Homeland Security. I, along with my colleagues, will also 
discuss our preparations for potential budget reductions and 
the impacts of the sequester.
    First, the backdrop. As we well know, we have not had a 
full year budget enacted on time since fiscal year 2009, having 
operated under 13 continuing resolutions since then. 
Furthermore, and excluding the Disaster Relief Fund, the 
Department's net discretionary appropriations have decreased by 
4 percent over the last 3 years, forcing the Department to 
absorb the cost of operational growth while continuing to 
respond to the constant homeland security threats and risks 
along the border, in the maritime and aviation environment, as 
well as an increasing number of natural disasters.
    However, in spite of this constant uncertainty, we have 
focused on improving our management operations by achieving 
over $4 billion in significant reductions in cost avoidances to 
administrative and mission support functions over the past 
several years to sustain our front-line operations.
    As I have noted in my written testimony, sequestration 
consists of mandatory, automatic, indiscriminate, across-the-
board cuts of approximately $85 billion throughout the Federal 
Government, which must be applied to nearly every program, 
project, and activity for the remainder of 2013.
    Like other agencies, DHS engaged in on-going planning 
activities with the Office of Management and Budget over the 
past several months to determine how to operate under 
sequestration, keeping in mind our primary responsibility to 
execute our core mission areas on behalf of the American 
people.
    As required by law, our execution of sequestration is 
applied as a uniform percentage reduction to all non-exempt 
budgetary accounts. The reductions will be implemented equally 
across all PPA's within an account.
    The Department has been planning for the possibility of 
sequestration since the BCA was signed into law in August 2011. 
The real challenge in planning for sequestration has been 
calculating the baseline upon which to apply the mandatory 
cuts.
    Beginning in August 2011, we have operated under five 
continuing resolutions, with no certainty of what our fiscal 
year 2013 appropriation level would be until just 3 weeks ago. 
This has created difficulties in developing detailed 
implementation strategies for each of our components and 120 
PPAs. Even as we approach the mid-point of fiscal year 2013, we 
still do not have certainty as to what our final number would 
be or what our baseline would be calculated against. For 
example, the agreement on fiscal cliff enacted on January 2, 
2013, postponed sequestration by 2 months until March 1 and 
provided a $24 billion down-payment towards the sequester. 
Additionally, in late January, Congress passed the 2013 
Disaster Relief Appropriations Act, providing $60.4 billion in 
supplemental appropriations to assist victims of Hurricane 
Sandy, including $12.1 billion for DHS. These actions changed 
the sequester amount for all Federal agencies months after the 
our planning activities had begun.
    The Fiscal Year 2013 Consolidated and Further Continuing 
Appropriations Act, enacted on March 26, changed our funding 
levels once again, requiring additional adjustments to our 
planning. Some components received additional funds, which have 
provided more flexibility, while others were appropriated less 
funding, which has required those components to identify 
additional actions to be taken.
    I notified all DHS employees in February that the Federal 
Government faced the possibility of sequestration and that both 
employees and operations could be impacted by these mandated 
cuts.
    Following the issuance of the sequester order on March 1, 
which requires the Department to achieve $3.2 billion in budget 
reductions over the remaining 7 months of the fiscal year, 
Department head components have begun efforts to reduce 
spending for every account.
    While our recently-enacted appropriations will somewhat 
help DHS to mitigate the impact of sequestration on our 
operations and workforce originally projected under the fiscal 
year 2000 CR--2013 CR enacted on September 28, 2012, there is 
no doubt that these cuts will impact operations in the short 
and long term.
    Given the substantial and far-reaching cuts mandated by 
sequestration, we will continue to do everything we can to 
minimize impacts to our core mission and our employees, 
consistent with the original priorities in our budget.
    The fiscal year 2013 Consolidated and Further Continuing 
Appropriations Act includes a requirement for all Federal 
departments to provide post-sequestration operation planning 30 
days after enactment. We are in the process of responding to 
this requirement by April 26.
    The Department appreciates the strong support it has 
received from the committee over the past 10 years. Once again, 
I look forward to the opportunity to answer questions. I 
appreciate the opportunity to be here today, and we look 
forward to answering your questions.
    [The joint prepared statement of Mr. Borras, Mr. Winkowski, 
Mr. Halinski, and Mr. Ragsdale follows:]
 Joint Prepared Statement of Rafael Borras, Thomas S. Winkowski, John 
                    Halinski, and Daniel H. Ragsdale
                             April 12, 2013
    Mr. Chairman, Ranking Member, and Members of the committee: We are 
pleased to appear before you to discuss sequestration and the important 
planning that has been undertaken to date by the Department of Homeland 
Security (DHS). We will also discuss issues surrounding the Budget 
Control Act (BCA) and our preparations for potential budget reductions 
and the impacts of sequestration.
    The sequestration order that the President was required by law to 
issue on March 1 requires the Department to achieve $3.2 billion in 
budget reductions over the remaining 7 months of the fiscal year. 
Sequestration consists of mandatory, automatic, and indiscriminate 
across-the-board budget cuts of approximately $85 billion throughout 
the Federal Government, which must be applied to nearly every program, 
project, and activity (PPA) within an account for the remainder of 
fiscal year 2013. Like other agencies, DHS has engaged in on-going 
planning activities in consultation with the Office of Management and 
Budget (OMB) over the past several months to determine how to operate 
under sequestration, keeping in mind our primary responsibility to 
execute our core mission areas on behalf of the American people. As 
required by law, our execution of sequestration is applied as a uniform 
percentage reduction to all non-exempt budgetary accounts; the 
reductions will be implemented equally across all PPAs within each 
account.
    As it became more clear that Congress was not going to take action 
to address the sequester, on February 26 and 27, leadership from DHS's 
Management Directorate provided notifications to all DHS employees that 
the Federal Government faced the possibility of sequestration, and that 
both employees and operations could be impacted by these mandated cuts. 
Following the issuance of the sequestration order on March 1, 
Departmental components began prudent steps to reduce spending for 
every account. These included the issuance of furlough notifications, 
reduction of overtime, hiring freezes, and postponed contract actions 
throughout the Department.
    Since then, the Department has continued its sequestration 
planning. The fiscal year 2013 Consolidated and Further Continuing 
Appropriations Act, enacted on March 26, changed our funding levels 
once again, requiring additional adjustments to our planning. Some 
components received additional funds which have provided more leeway in 
achieving the required reductions, while others were appropriated less 
funding which has required those components to identify additional 
actions that can be taken.
    While our recently-enacted appropriations will help DHS to 
mitigate--to some degree--the impacts of sequestration on our 
operations and workforce that were originally projected under the 
fiscal year 2013 Continuing Resolution (CR) enacted on September 28, 
2012, there is no doubt that these cuts will affect operations in the 
short and long term. Lines and wait times at our ports of entry (POEs) 
are longer, affecting travel and trade; the take-home pay of the men 
and women on the front lines will be reduced; and employees across the 
Department as well as the public we serve face uncertainty based on 
sudden budgetary reductions that must be met by the end of the year. 
The long-term effects of sustained cuts at these levels will result in 
reduced operational capacity, breached staffing floors, and economic 
impacts to the private sector through reduced and cancelled contracts. 
In spite of the substantial and far-reaching cuts mandated by 
sequestration, we will continue to do everything we can to minimize 
impacts on our core mission and employees, consistent with the 
operational priorities in our 2014 budget.
                         dhs fiscal stewardship
    Through administrative efficiencies, cost avoidances, and our 
internal budgeting processes, we have been working proactively to 
reduce the Department's resource requirements wherever possible. In 
fact the Department's fiscal year 2014 budget, submitted to Congress on 
April 10, reflects the third consecutive year in which the Department's 
overall topline has been reduced.
    Through the Department-wide, employee-driven Efficiency Review, 
which began in 2009, as well as other cost-saving initiatives, DHS has 
identified over $4 billion in cost avoidances and reductions, and 
redeployed those funds to mission-critical initiatives across the 
Department. For example, in the past, offices at DHS purchased new 
computers and servers while excess equipment remained unused in other 
areas of the Department. Through component-level efforts to better re-
utilize excess IT equipment, DHS has saved $24 million in taxpayer 
money. In addition, DHS previously spent millions of dollars each year 
by paying for cell phones and air cards that were not in use. The 
Department now conducts annual audits of usage and has saved $23 
million to date. Also, DHS has encouraged components to use Government 
office space and on-line tools for meetings and conferences instead of 
renting private facilities, a change that has saved $11.7 million to 
date.
    We have used strategic sourcing initiatives to leverage the 
purchasing power of the entire Department for items such as language 
services, tactical communications services and devices, intelligence 
analysis services, and vehicle maintenance services. In fiscal year 
2012, we achieved $368 million in savings, and we project $250 million 
in savings for fiscal year 2013, subject to sequestration.
    In support of the administration's Campaign to Cut Waste, DHS 
strengthened conference and travel policies and controls to reduce 
travel expenses and ensure conferences are cost-effective and that both 
travel and conference attendance is driven by critical mission 
requirements. In 2012, DHS issued a new directive that establishes 
additional standards for conferences and requires regular reporting on 
conference spending, further increasing transparency and 
accountability.
    In our fiscal year 2014 budget, we identified initiatives that will 
result in $1.3 billion in savings from administrative and mission 
support areas, including contracts, information technology, travel, 
personnel moves, overtime, directed purchasing, professional services, 
and vehicle management.
    In effect, with declining resources, the Department has worked 
proactively to eliminate inefficiencies wherever possible and to focus 
available resources on supporting front-line mission requirements. We 
have a proven, established process to plan and budget; however recent 
fiscal uncertainties and the across-the-board nature of sequestration 
have affected the Department's ability to plan beyond recent, immediate 
budget crises that have occurred.
                     initial sequestration planning
    As you are aware, the BCA was signed into law on August 2, 2011. 
The BCA established caps on discretionary spending for fiscal year 2012 
through fiscal year 2021. Since enactment of the BCA, the Department 
has been planning for the possibility of sequestration. In August 2011, 
our Office of General Counsel and the Office of the Chief Financial 
Officer (OCFO) provided an initial review of the new statute to become 
familiar with its provisions and impacts to the Department.
    On September 12, 2011, the Congressional Budget Office released its 
report entitled, ``Estimated Impact of Automatic Budget Enforcement 
Procedures Specified in the Budget Control Act.'' On the basis of that 
analysis, OCFO commenced work with Departmental components to identify 
which accounts are included in the Security and Non-Security 
Categories, since they would be subject to differing sequester amounts.
    On July 31, 2012, OMB provided guidance to Federal agencies that 
discussions would commence over the coming months on issues associated 
with sequestration. It was recognized then that undertaking 
sequestration planning and implementation activities would divert 
resources from other important activities and priorities. It was our 
hope and expectation that, rather than force the Department to pursue a 
course of action that would be disruptive to mission-related 
activities, Congress would reach agreement on a deficit reduction 
package as an alternative to sequestration.
    On September 17, 2012, OMB provided Congress with its Sequestration 
Transparency Act report, which identified agency-by-agency the 
estimated funding amounts that could be sequestered based on 
appropriations enacted for fiscal year 2012, not fiscal year 2013. The 
OMB report estimated that DHS would be subject to a 5 percent sequester 
and required to absorb approximately $3.2 billion in reductions to its 
total budget authority beginning January 2, 2013.
    The Department thus began comprehensive planning efforts, 
consistent with OMB guidance. A significant challenge remained, 
however, in that amounts subject to sequestration could only be 
calculated once final fiscal year 2013 funding levels were known. The 
fiscal year 2013 Continuing Appropriations Act enacted on September 28, 
2012, left the Department operating under a CR until March 27, 2013--a 
point beyond the date sequestration was mandated to begin.
    For the remainder of 2012, the Department's leadership continued to 
examine what courses of action might be necessary to implement 
sequestration, including the establishment of uniform procedures for 
taking personnel actions such as furloughs, reductions in force (RIFs), 
and voluntary early retirements and separations, as well as identifying 
contracts which could be re-scoped. The Department's chief financial, 
human capital, and procurement officers worked closely together during 
this time to ensure proper coordination in developing our sequestration 
implementation plans.
    In our planning efforts, we were careful to strike a balance to 
take prudent, responsible steps toward across-the-board budget 
reductions. Our guiding principles have been as follows:
  <bullet> First, we focus on preserving the Department's front-line 
        operations and other mission-critical activities to the maximum 
        extent possible.
  <bullet> Second, understanding that DHS is a labor-driven 
        organization, we strive to avoid and if required, minimize 
        furloughs to the greatest extent possible. Hiring freezes and 
        potential furloughs not only have operational impacts on our 
        core missions but adversely affect employee morale and well-
        being.
    Unfortunately sequestration in and of itself provides very little 
flexibility in how the across-the-board cuts must be applied. Several 
types of personnel actions that agencies regularly use to manage their 
workforce over the long term are not useful to address the short-term 
requirements of sequestration. Implementing DHS-wide voluntary early 
retirements and separations entails up-front funding which is not 
available under a sequestered budget. The notification and bargaining 
processes required for RIFs could not be completed until fiscal year 
2014, well after our fiscal year 2013 funding is sequestered.
                      implementation plan changes
    Following the passage of the American Taxpayer Relief Act of 2012 
on January 2, 2013, several additional challenges arose for our 
sequestration planning.
    This legislation postponed sequestration by 2 months, until March 
1, and provided a $24 billion down payment that reduced the amount of 
sequestration for fiscal year 2013 from $109 billion to $85 billion. 
Additionally, in late January, Congress passed the fiscal year 2013 
Disaster Relief Appropriations Act (Pub. L. 113-2) which provides $60.4 
billion in supplemental appropriations to assist victims of Hurricane 
Sandy, including $12.1 billion for DHS. These actions changed the 
sequester amount for all Federal agencies months after our planning 
activities had begun. The fiscal year 2013 Consolidated and Further 
Continuing Appropriations Act also provided DHS with a new baseline for 
fiscal year 2013.
    Accordingly, even as our planning for sequestration progressed 
throughout 2013, given the actions described above, the amount of the 
sequester changed numerous times, creating difficulties in developing 
detailed implementation strategies for each of our components.
          impacts of the sequestration order on the department
    Following are the impacts of sequestration to several of the 
Department's front-line components: U.S. Customs and Border Protection 
(CBP), U.S. Immigration and Customs Enforcement (ICE), and the 
Transportation Security Administration (TSA).
Impacts on U.S. Customs and Border Protection
    CBP is America's front-line border security agency, the guardians 
of our borders, responsible for protecting the United States and the 
American people from the entry of dangerous goods and people. With more 
than 60,000 employees, CBP has the largest number of uniformed officers 
of any Federal law enforcement agency. Its primary mission is keeping 
terrorists and their weapons out of the United States. CBP is also 
responsible for securing the border and facilitating lawful 
international trade and travel while enforcing hundreds of U.S. laws 
and regulations. This includes ensuring that all persons and cargo 
enter the United States legally and safely through official POEs, 
preventing the illegal entry of persons and contraband into the United 
States at and between POEs, promoting the safe and efficient flow of 
commerce into our country, and enforcing trade and tariff laws and 
regulations.
    CBP protects approximately 7,000 miles of land borders and 95,000 
miles of coastal shoreline. Operating at 329 POEs across the United 
States, CBP welcomes almost 1 million travelers by land, sea, and air, 
facilitating the flow of goods essential to our economy. In fiscal year 
2012, CBP facilitated more than $2.3 trillion in trade and welcomed a 
record 98 million air travelers, a 12 percent increase since fiscal 
year 2009. CBP also collected $39.4 billion in revenue, a 6 percent 
increase over the previous year--illustrating the critical role of CBP 
not only with border security, but with economic security and continued 
growth. Trade and travel are absolutely vital to our economy, and 
according to the U.S. Travel Association, one new American job is 
created for every 33 travelers arriving from overseas.
    Removing the planned transfer of US-VISIT, CBP's fiscal year 2013 
direct appropriation budget request was $10.083 billion, $72 million 
less than its fiscal year 2012 appropriation. In order to fund rising 
personnel costs within a slightly declining overall budget, CBP 
proposed a variety of efficiencies and program reductions and deferred 
a number of major acquisitions. At the fiscal year 2013 enacted level 
with nearly $600 million in sequestration reductions, CBP's fiscal year 
2013 funding level is $309 million less than fiscal year 2012, or about 
3 percent less than the previous fiscal year. As a result, CBP has made 
further reductions to non-pay costs and discretionary pay costs, such 
as awards, overtime, and mission support hiring.
    Although the fiscal year 2013 Consolidated and Further Continuing 
Appropriations Act provides additional funding for CBP and enables it 
to mitigate to some degree the impacts to its workforce, sequestration 
still requires more than $600 million in cuts across CBP, affecting 
operations in the short and long term. While CBP remains committed to 
doing everything it can to minimize risks and mitigate the impact of 
sequestration, we have already experienced significant impacts to 
cross-border activities.
    Reduced CBP Officer (CBPO) overtime availability at our Nation's 
ports has resulted in increased wait times for travelers across the 
country. International travelers have experienced wait times of up to 
several hours to process through Customs and a number of locations have 
reported wait times averaging between 120 to 240 minutes, and some as 
long as 4 to 4\1/2\ hours. These automatic cuts have occurred against a 
backdrop of significant growth in travel and trade in all POE 
environments. Air travel at the major gateway airports is up by 4 
percent, on top of a 3-year increase of over 12 percent. Land border 
travel is up 3.6 percent through the fiscal year to date. Additionally, 
cargo volumes have increased in all environments over the past 3 years.
    Delays affect the air travel environment, causing missed passenger 
connections for both domestic and international flights. Reduced CBPO 
overtime availability at our Nation's ports also slows the movement of 
goods across the border. Even the smallest increase in wait times at 
the borders directly affects our economy. Reduced CBPO overtime 
availability will continue to impede CBP's capacity to facilitate and 
expedite cargo, adding costs to the supply chain and diminishing our 
global competitiveness that is so critical to our economy.
    Between the POEs, sequestration has led to significant reductions 
in areas like CBP's detainee transportation support contract, which 
increases non-law enforcement requirements for front-line Border Patrol 
Agents. CBP has also cut operating expenses, including vehicle usage, 
affecting Border Patrol's ability to respond to requests from other law 
enforcement entities for assistance.
    Additionally, reductions in relocation expenses will necessitate 
that the Border Patrol postpone promotions to leadership and managerial 
positions, requiring less experienced staff to perform the functions of 
these critical jobs.
    Based on CPB's funding levels as of March 1, the sequester also 
necessitated CBP to take steps to achieve a reduction of 21,000 flight 
hours for CBP's fleet of 269 aircraft from a level of 69,000 hours to 
48,000 hours, impacting CBP's ability to provide critical aerial 
surveillance and operational assistance to law enforcement personnel on 
the ground. Based on funding provided in the fiscal year 2013 
Consolidated and Further Continuing Appropriations Act, CBP will work 
to restore flight hours to pre-sequestration levels.
Impacts on U.S. Immigration and Customs Enforcement
    ICE serves as DHS's principal investigative arm and is the second-
largest investigative agency in the Federal Government.
    ICE promotes homeland security and public safety through broad 
criminal and civil enforcement of approximately 400 Federal laws 
governing border control, customs, trade, and immigration. In fiscal 
year 2012, ICE's Homeland Security Investigations (HSI) initiated over 
43,000 new investigations and made more than 32,000 criminal arrests 
around the world. During this same time period, we set a new agency 
record with the seizure of $774 million in currency and negotiable 
instruments, more than double the amount seized during the previous 
year, as well as the seizure of 1.5 million pounds of narcotics and 
other dangerous drugs and $175 million worth of counterfeit goods.
    ICE's Enforcement and Removal Operations identifies, apprehends, 
and removes criminal and other removable aliens from the United States. 
Last year, ICE removed 409,849 illegal immigrants, including 225,000 
individuals who had been convicted of felonies or misdemeanors.
    ICE's fiscal year 2013 budget request was $218 million less than 
its fiscal year 2012 appropriation, reflecting a variety of planned 
efficiencies. At the fiscal year 2013 enacted level with sequestration 
applied, ICE's fiscal year 2013 funding level is $417 million less than 
fiscal year 2012, or about 7.1 percent less than the previous fiscal 
year. As a result, ICE has made adjustments to several program plans 
for fiscal year 2013.
    After the sequestration order was given, ICE leadership distributed 
guidance to all of its employees outlining post-sequestration plans, 
including spending controls during this period. Key aspects of ICE's 
post-sequestration plan include cuts in the areas of hiring, contracts, 
travel, training and conferences, compensatory time and overtime, 
vehicle usage, and permanent change of station moves, which will affect 
ICE's criminal and civil enforcement missions.
    For instance, ICE continues to leave a number of positions unfilled 
by not backfilling for attrition.
    We expect that that these workforce and operational reductions will 
result in fewer cases, arrests, and seizures, and could impact both 
interagency and international partnerships. A number of ICE criminal 
operations have already been slowed or deferred, and HSI offices are 
reducing operational activities within current investigations. For 
instance, ICE HSI Special Agents in Charge have had to curtail their 
use of informant payments as well as Title III wire intercepts, 
investigative tools that allow agents to gain critical information to 
dismantle transnational criminal organizations. Finally, HSI offices 
have discontinued the use of certain Government-owned vehicles that 
require mandatory repairs. As a result, investigative field functions 
may be affected, including arrests and seizures of contraband goods and 
weapons.
    Sequestration could also present significant challenges for ICE's 
civil immigration enforcement mission. ICE will continue to manage its 
detention population in order to ensure it can operate within the 
appropriations level provided by Congress in the fiscal year 2013 
Consolidated and Further Continuing Appropriations Act, and in 
consideration of reductions required by sequestration. To the extent 
that ICE is unable to maintain 34,000 detention beds with the funding 
provided, it will focus its detention capabilities on priority and 
mandatory detainees, including individuals who pose a danger to 
National security or a risk to public safety, including aliens 
convicted of crimes, with particular emphasis on violent criminals, 
felons, and repeat offenders. ICE will place low-risk, non-mandatory 
detainees in lower-cost, parole-like alternatives to detention 
programs, which may include electronic monitoring and intensive 
supervision. In addition, ICE has postponed indefinitely its Advanced 
Tactical Training classes for Fugitive Operation Teams, which target 
fugitive aliens who have received a final order of removal from an 
immigration judge or who have been previously removed and have re-
entered the United States unlawfully.
    ICE will also delay a number of facilities projects. To support its 
operations, ICE has more than 600 leased locations throughout the 
United States, of which 161 leases are expiring between fiscal years 
2013-2015. In many instances, the project delays will result in the 
untimely acquisition of new space, resulting in duplicative rent 
payments, delaying claim payments to contractors, and additional legal 
action from building owners.
    ICE will continue to evaluate the recently-enacted appropriations 
to determine how best to mitigate the impact of the reduced funding 
level on its workforce and operations.
Impacts on the Transportation Security Administration
    TSA's fiscal year 2013 budget request was $200 million less than 
its fiscal year 2012 appropriation, reflecting a variety of planned 
efficiencies. After applying the sequester to its final enacted fiscal 
year 2013 appropriation, TSA's fiscal year 2013 funding level is $670 
million less than fiscal year 2012, or about 8.8 percent less than the 
previous fiscal year.
    While the reductions required by sequestration will continue to 
have impacts on TSA, the fiscal year 2013 Consolidated and Further 
Continuing Appropriations Act provides TSA with additional funding for 
Transportation Security Officers, which allows TSA to mitigate to some 
degree the impacts on their workforce and operations. TSA will use 
these additional funds to maintain its security screening workforce 
through prudent management of hiring and controlled overtime. Although 
initial projected impacts on wait times are largely mitigated through 
the additional funding provided for Transportation Security Officers by 
Congress, at reduced levels of personnel and restricted overtime, 
travelers may see lines and wait times increase during the busiest 
travel periods or required surge operations.
    The Federal Air Marshal Service (FAMS) has had a hiring freeze in 
place for over a year to manage a planned program adjustment from 
$965.8 million in fiscal year 2012 to $929.6 million in fiscal year 
2013. Congress further reduced that funding in the full fiscal year 
2013 appropriation to $906.9 million, or $858 million under 
sequestration, an 11.1 percent cut below fiscal year 2012 levels. The 
FAMS mission funding is dominated by personnel, travel, and related 
costs. TSA continues to assess the personnel actions and mission 
adjustments that will be necessary at the decreased budget level.
    Sequestration has also had significant impacts on TSA's information 
technology, checkpoint technology, security screening equipment and 
infrastructure accounts, totaling a $288 million reduction from fiscal 
year 2012 levels. In light of these cuts, information technology (IT) 
service-level contracts, refreshment of IT equipment, and maintenance 
schedules will be deferred or reduced through the end of the fiscal 
year. Furthermore, security equipment technology replacement and 
investment plans are being adjusted to reflect the reduced budget 
level. While TSA is working to minimize disruption to operational 
support and security services to the greatest extent possible, in many 
cases equipment also already reached or exceeded its planned service 
life.
    Finally, TSA has taken action to establish additional controls 
across the agency. We have canceled previously-approved conferences, 
meetings that require travel, and training activities. This includes 
management control training, field oversight and compliance audits, 
operational and support program coordination planning and preparedness 
training.
                               conclusion
    The FY 2013 Consolidated and Further Continuing Appropriations Act 
includes a requirement to prepare post-sequestration operating plans 30 
days after enactment, by April 25. We are in the process of responding 
to this requirement.
    As discussed earlier, the Department has already taken over $4 
billion in significant reductions and cost avoidances to administrative 
and mission support functions over the past several years in order to 
sustain front-line operations while planning for declining budgets. 
However, the statutory requirements for sequestration leave Federal 
agencies with very little discretion on how to apply across-the-board 
funding cuts. With less than 6 months remaining in fiscal year 2013, 
DHS simply cannot absorb the additional reductions mandated by 
sequestration without affecting front-line operations and the critical 
homeland security capabilities we have built over the past 10 years.
    Hurricane Sandy, recent threats surrounding aviation, and the 
continued threat of homegrown terrorism demonstrate how we must remain 
vigilant and prepared. Threats from terrorism and response and recovery 
efforts associated with natural disasters will not diminish because of 
budget cuts to DHS.
    Even in this current fiscal climate, we do not have the luxury of 
making significant reductions to our capabilities without placing our 
Nation at risk. Rather, we must continue to prepare for, respond to, 
and recover from evolving threats and disasters--and we require 
sufficient resources to sustain and adapt our capabilities accordingly.
    Thank you for inviting us to appear before you today. The 
Department appreciates the strong support it has received from the 
committee over the past 10 years. We would be pleased to answer any 
questions you may have.

                         SEQUESTRATION TIMELINE
                    Fiscal Year 2013 Budget in Draft
------------------------------------------------------------------------
             Date
------------------------------------------------------------------------
4/15/2011....................  Congress enacts fiscal year 2011 Year-
                                Long Continuing Resolution (CR).
                               Preliminary work begins on the fiscal
                                year 2013 budget.
5/2011.......................  DHS conducts fiscal year 2011 Mid-Year
                                Budget Reviews; DHS components complete
                                fiscal years 2013-2017 Resource
                                Allocation Proposals (RAPs).
6/2011.......................  OMB conducts mid-session review of the
                                fiscal year 2012 Budget Submission.
7/2011.......................  OMB Guidance issued on fiscal year 2013
                                Budget Formulation; DHS determines
                                fiscal years 2013-2017 Resource
                                Allocation Decisions.
8/2/2011.....................  1st potential default of U.S. debt
                                obligations looms; Congress passes
                                Budget Control Act.
9/12/2011....................  Congressional Budget Office estimates
                                fiscal year 2013 sequester to be 7.8%
                                for Non-Security and 10% for Security
                                Category discretionary accounts.
9/30/2011....................  Congress passes 1st fiscal year 2012 CR
                                (for DHS) through  10/4/2011; OMB
                                provides apportionments.
10/1/2011....................  Fiscal year 2012 begins with Federal
                                agencies operating under a CR.
10/5/2011....................  Congress passes 2nd fiscal year 2012 CR
                                (for DHS) through  11/18/2011; OMB
                                provides apportionments.
11/16/2011...................  Congress passes 3rd fiscal year 2012 CR
                                (for DHS) through  12/17/2011; OMB
                                provides apportionments.
12/17/2011...................  Congress passes 4th fiscal year 2012 CR
                                (for DHS) through  12/23/2011; OMB
                                provides apportionments.
12/23/2011...................  Congress passes fiscal year 2012
                                Consolidated Appropriations Act; OMB
                                provides apportionments.
1/15/2012....................  Deadline passes for Congress to enact a
                                deficit reduction package, triggering
                                sequestration for fiscal year 2013.
------------------------------------------------------------------------



      Fiscal Year 2013 Budget Request Pending Congressional Action
------------------------------------------------------------------------
             Date
------------------------------------------------------------------------
2/13/2012....................  President's fiscal year 2013 budget is
                                submitted to Congress.
3/2012.......................  DHS issues fiscal years 2014-2018
                                Guidance to Components.
4/2012.......................  Preliminary work begins on the fiscal
                                year 2013 budget.
5/2012.......................  DHS conducts fiscal year 2012 Mid-Year
                                Budget Reviews; DHS components complete
                                fiscal years 2014-2018 Resource
                                Allocation Proposals.
6/2012.......................  OMB conducts mid-session review of the
                                fiscal year 2013 Budget Submission.
7/2012.......................  OMB Guidance issues on fiscal year 2014
                                Budget Formulation; DHS determines
                                fiscal years 2014-2018 Resource
                                Allocation Decisions.
7/31/2012....................  OMB issues preliminary guidance on
                                sequestration.
8/15/2012....................  DHS Chief Financial Officer (CFO)
                                conducts CFO Council Meeting on
                                sequestration.
9/14/2012....................  OMB releases Sequestration Transparency
                                Act report detailing for the first time
                                account-by-account sequesters, based on
                                fiscal year 2012 funding levels; CFO
                                conducts CFO Council Meeting.
9/28/2012....................  Congress passes fiscal year 2013 CR
                                through March 27, 2013; Federal agency
                                funding remains at fiscal year 2012
                                funding levels; OMB issues apportionment
                                guidance.
------------------------------------------------------------------------



        Fiscal Year 2013 CR (Funding at Fiscal Year 2012 Levels)
------------------------------------------------------------------------
             Date
------------------------------------------------------------------------
10/1/2012....................  Fiscal year 2013 begins with Federal
                                agencies operating under a CR.
10/5/2012....................  CFO conducts CFO Council Meeting on
                                sequestration.
10/19/2012...................  CFO, Chief Human Capital Officer (CHCO),
                                and Chief Procurement Officer (CPO)
                                conduct joint meeting on possibility of
                                sequestration.
11/15/2012...................  CHCO conducts Human Capital Leadership
                                Council discussion on sequestration.
12/7/2012....................  CFO conducts CFO Council Meeting on
                                sequestration.
12/11/2012...................  CHCO and CFO conduct joint planning
                                session on sequestration.
12/21/2012...................  DHS Management leadership informs DHS
                                employees about possibility about
                                sequestration.
1/2/2013.....................  Fiscal Cliff agreement enacted;
                                Department of Homeland Security shifted
                                into the Security Category; fiscal year
                                2013 sequester reduced by $24 billion.
1/4/2013.....................  CFO conducts CFO Council Meeting on
                                sequestration.
1/14/2013....................  OMB issues guidance on fiscal
                                uncertainties and potential of
                                sequestration.
1/29/2013....................  Congress passes fiscal year 2013 Disaster
                                Relief Appropriations Act, providing
                                $50.7 billion in new appropriations
                                subject to sequestration.
1/31/2013....................  2nd potential default on U.S. debt
                                obligations looms; Congress suspends
                                Debt Ceiling until 5/19/2013.
2/6/2013.....................  DHS Management leadership informs DHS
                                employees about possibility about
                                sequestration.
2/25/2013....................  CPO notifies component heads of
                                contracting authorities of potential
                                sequestration impacts.
2/27/2013....................  OMB issues guidance on sequestration
                                planning; DHS Management leadership
                                sends follow up communication to DHS
                                employees.
3/1/2013.....................  President orders fiscal year 2013
                                sequester at 5.0% for Non-Security and
                                7.8% for Security Category accounts,
                                based on CR funding levels; OMB issues
                                sequestration and apportionment
                                guidance.
3/5/2013.....................  CPO notifies the DHS contracting
                                community of potential for contract
                                actions under sequestration.
3/22/2013....................  DHS issues fiscal years 2015-2019
                                Guidance to components.
------------------------------------------------------------------------



                     Final Fiscal Year 2013 Enacted
------------------------------------------------------------------------
             Date
------------------------------------------------------------------------
3/26/2013....................  Congress passes fiscal year 2013
                                Consolidated and Further Continuing
                                Appropriations Act, provides a new
                                baseline for the remainder of fiscal
                                year 2013.
4/4/2013.....................  OMB issues guidance on sequestration
                                planning.
4/26/2013....................  Deadline for Federal agencies to provide
                                plans for operating under sequestration.
------------------------------------------------------------------------


    Mr. Duncan. Thank you so much, Under Secretary Borras.
    The Chairman will now recognize Mr. Winkowski to testify.

    STATEMENT OF THOMAS S. WINKOWSKI, DEPUTY COMMISSIONER, 
  PERFORMING THE DUTIES OF THE COMMISSIONER, U.S. CUSTOMS AND 
    BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Good morning, Chairman Duncan, Ranking 
Member Barber, and Members of the subcommittee.
    It is an honor to appear before you today on behalf of U.S. 
Customs and Border Protection to discuss sequestration and the 
impact it has on our mission to keep terrorists out of our 
country, secure our borders, and facilitate the flow of people 
and goods into the United States.
    CBP protects approximately 7,000 miles of land borders and 
95,000 miles of coastal shoreline. We operate at 329 ports of 
entry across the United States, welcoming travelers and 
facilitating international trade.
    In fiscal year 2012, CBP facilitated the processing and 
security of 350 million travelers arriving at our Nation's 
borders by land, sea, and air. At our airports alone, we have 
welcomed a record 98 million air travelers, a 12 million 
percent increase since--excuse me--a 12 percent increase since 
fiscal year 2009. Last year, CBP also facilitated approximately 
$2.4 trillion in trade and collected almost $40 billion of 
revenue, a 6 percent increase over the previous year.
    Original sequestration guidance in September was that CBP 
would have to make budget reductions of more of $950 million in 
order to maintain Congressionally-mandated front-line Border 
Patrol Agents and CBP Officer staffing floors. CBP developed a 
financial plan, which included a wide range of reductions to 
both pay and non-pay expenses. With over 70 percent of CBP's 
budget dedicated to agency payroll, we face a daunting 
challenge in identifying reductions which would not impact 
employee paychecks. We were able to identify nearly $110 
million in reductions through such actions and implementing a 
hiring pause for non-agent and non-officer positions, canceling 
most training, reducing contracts and equipment approaches, and 
sharply curtailing travel expenses. The remaining sequester 
reduction requirement had to be addressed through payroll-
related impact, specifically employee furloughs and overtime 
savings, with consideration for overtime reduction given to the 
mandatory nature of passenger and cargo inspections at ports of 
entry.
    DHS fiscal year 2013 appropriations bill, recently enacted 
by Congress, increased CBP's budget by about $200 million, with 
$98 million of that going specifically to the Border Patrol 
account. The increase in CBP budget combined with a lower 
sequestration reduction level of $602 million has allowed CBP 
to postpone furloughs and deauthorization of administratively 
uncontrollable overtime, AUO, while we assess the exact impact 
that the bill will have on our operations and our workforce.
    While our sequestration reduction level has decreased from 
initial guidance, the $602 million in cuts across CBP will 
affect operations in the short and long term. Between the ports 
of entry, sequestration has led to significant reductions in 
areas like CBP's detainee transportation support contract, 
which increases non-law-enforcement requirements for front-line 
Border Patrol Agents. CBP has also cut operating expenses, 
including vehicle usage, affecting Border Patrol's ability to 
reduce--to respond to requests from our law enforcement 
entities for assistance.
    Additionally, reductions in relocation expenses will 
necessitate that the Border Patrol postpone promotions to 
leadership and managerial positions, requiring less experienced 
staff to perform the functions of these critical jobs.
    At the ports of entry, reduced CBP Officer overtime 
availability at our Nation's ports has increased--has resulted 
in increased wait times for travelers across the country. 
International travelers have experienced wait times of several 
hours. A number of locations have reported wait times averaging 
between 120 and 240 minutes, and a few as long as 4 to 4\1/2\ 
hours.
    These automatic cuts are occurring against a backdrop of 
significant growth in trade and travel in all ports of entry 
environments. Air travel at the major gateway airports is up by 
4 percent on top of 3-year increase of over 12 percent. Land 
border travel is up 3.6 percent through the fiscal year to 
date. Additionally, cargo volumes have increased in all 
environments over the past 3 years.
    CBP will preserve its highest mission priorities in these 
demanding fiscal times and has issued clear guidance on 
maintaining priority operations during sequestration with the 
following key principles: Our security efforts will remain our 
highest priority. We will not allow the denigration of our 
primary antiterrorism mission at our ports or between our 
ports. We will prioritize core processing and facilitation 
operations for both travelers and cargo, and we will continue 
to carry out our border operation consistent with all 
applicable legal requirements.
    In closing, I appreciate the opportunity to come here today 
and I look forward to any questions.
    Mr. Duncan. Thank you, Mr. Winkowski.
    The Chairman will now recognize Mr. Halinski to testify.

       STATEMENT OF JOHN HALINSKI, DEPUTY ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Halinski. Good morning, Chairman Duncan, Ranking Member 
Barber, and distinguished Members of the subcommittee.
    Thank you for the opportunity to testify today about the 
impact of sequestration on the Transportation Security 
Administration's operations.
    As you know, the President signed the sequester order on 
March 1, as mandated by law, requiring across-the-board budget 
cuts at all Federal agencies, including a $3.2 billion cut for 
the Department of Homeland Security through the end of the 
fiscal year.
    TSA is the lead agency for protecting the Nation's 
transportation system from terrorist attacks, while ensuring 
the freedom of movement for people and commerce. The agency 
manages effective and efficient screening and security for all 
air passengers, baggage, and cargo on passenger planes. It is 
also deploys Federal air marshals internationally and 
domestically to detect, deter, and defeat hostile acts 
targeting air carriers, airports, passengers, crews, and other 
transportation infrastructure.
    Each year, transportation systems protected by TSA 
accommodate nearly 640 million aviation passengers, 751 million 
passengers traveling on buses, more than 9 billion passenger 
trips on mass transit, nearly 800,000 daily shipments of 
hazardous material, and more than 140,000 miles of railroad 
track, over 4 million miles of public roads, and nearly 2.6 
million miles of pipeline.
    Regardless of the challenging fiscal landscape before us, 
TSA's guiding principle has been and will continue to be to 
provide the most effective security in the most efficient 
manner. TSA functions as a critical component of our Nation's 
counterterrorism efforts, with a dedicated workforce working 
around the clock and across the globe to execute our 
transportation security responsibilities. Every day, we 
interact closely with the public and private-sector 
stakeholders in the aviation, freight rail, mass transit, 
passenger rail, highway and pipeline sectors to employ an 
intelligence-driven, risk-based security approach across all 
modes of transportation.
    Throughout the sequestration planning efforts, we have been 
careful to seek prudent, responsible steps toward across-the-
board budget reductions. Our guiding principles have been two: 
No. 1, preserve the Nation, preserve TSA's front-line 
operations and other mission-critical activities to the maximum 
extent possible; No. 2, take care of our workforce by managing 
hiring practices, managing overtime, and through other means.
    TSA's fiscal year 2013 budget request was $200 million less 
than its fiscal year 2012 appropriate, reflecting a variety of 
planned efficiencies. After applying the sequester to its final 
enacted fiscal year 2013 appropriation, TSA's fiscal year 2013 
funding level is $670 million less than fiscal year 2012, or 
about 8.8 percent less than the previous fiscal year.
    While the reductions required by sequestration will 
continue to impact the Transportation Security Administration, 
the recent passage by Congress of the fiscal year 2013 
Consolidated and Further Continuing Appropriation Act provides 
TSA with additional funding for transportation security 
officers and some other areas. This allows TSA to mitigate the 
impact on its operations and workforce.
    TSA will use additional funds to maintain its security 
screening workforce through prudent management of hiring and 
controlled overtime. Our Federal Air Marshal Service has had a 
hiring pause in place for more than a year to manage the 
planned program adjustment from $965.8 million in fiscal year 
2012 to $929.6 million in fiscal year 2013. TSA continues to 
assess the personnel actions and mission adjustments that will 
be necessary at this decreased budget level.
    Sequestration has also had a significant impact on TSA's 
information technology, checkpoint technology, security 
screening equipment, and infrastructure accounts. TSA is 
analyzing and working to minimize any disruption that these 
reductions may cause.
    Finally, TSA has taken action to establish additional 
controls across the agency. We have cancelled conferences as 
well as noncritical, mission-essential travel and training 
activities. In the face of sequestration, TSA will continue 
implementing an intelligence-driven, risk-based approach to 
security across the transportation modes, while seeking 
operational and management efficiencies across the 
organization.
    Thank you for the opportunity to appear before you today. I 
look forward to answering your questions.
    Mr. Duncan. Thank you so much for your statement, Mr. 
Halinski.
    The Chairman will now recognize Mr. Ragsdale for his 
opening statement.

    STATEMENT OF DANIEL H. RAGSDALE, DEPUTY DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Ragsdale. Good morning, Chairman Duncan, Ranking Member 
Barber, Members--distinguished Members of the subcommittee. It 
is my honor to testify in front of you today about U.S. 
Immigration and Customs Enforcement.
    As you may know, ICE is DHS' principal investigative arm 
and is the second-largest investigative agency in the Federal 
Government. ICE's broad mission covers border security, 
customs, trade, and immigration.
    Last year, ICE homeland security investigations, or HSI, 
initiated over 43,000 new investigations and made more than 
32,000 criminal arrests, received a record $774 million, 1.5 
million pounds of narcotics, and more than $175 million in 
counterfeit goods.
    We had similar successes in our enforce and removal 
operations, or ERO. Last year, we removed over 400,000 illegal 
immigrants, and over 55 percent, or 225,000, have been 
convicted of crimes.
    That said, sequestration has required an almost $300 
million reduction to these programs that saw these record 
successes. For instance, sequestration could present 
significant challenges to ICE's enforcement efforts. Congress 
has mandated that ICE maintain an average daily population of 
34,000. Complying with this mandate will be extremely difficult 
in light of the broad sequestration cuts.
    In order to meet sequestration targets, ICE will focus its 
limited resources on the detention of detainees subject to 
mandatory detention, including recent border-crossers and 
priority cases. ICE will place low-risk mandatory detainees in 
lower-cost alternatives to detention.
    ICE also continues to leave a number of positions unfilled 
by not filling based on attrition. This involves leaving some 
key leadership positions around the agency unfilled.
    In addition, the need to curtail the use of critical 
investigative techniques will ultimately lead to fewer arrests 
and seizures. To put this into perspective, just a week ago, 
ICE arrested 113 individuals in Connecticut and Puerto Rico. 
These targets were associated with a Latin King street gang and 
involved money laundering, violent crimes, and the 
transportation of a great deal of heroin and cocaine from the 
Caribbean to Connecticut. This case could only have been 
completed with the aid of 23 wiretaps of the 800 wiretaps we 
used last year. These critical tools that are essential to our 
enforcement mission will have to be restricted under 
sequestration.
    Simply put, fiscal uncertainty has led to the hard reality 
that could have a significant effect on our investigative and 
enforcement missions. Complying with the sequestration order 
could mean fewer investigations into human trafficking, 
narcotics, violent crime, child exploitation, contraband 
smuggling, and counterproliferation, and a host of other crimes 
that affect public safety.
    I thank you again for the opportunity to testify here today 
and look forward to answering your questions.
    Mr. Duncan. Thank you so much, Mr. Ragsdale.
    Now, the Chairman will recognize himself for 5 minutes.
    I must first express the frustration of the American people 
and myself over the release of 2,000 detainees by ICE. The 
decision was made before sequestration kicked in. We talked 
about the hope that was--of the Department that sequestration 
wouldn't happen, and this happened before the final decision to 
allow sequestration to go in place.
    So according to the information that DHS provided to my 
subcommittee staff, the Department's leadership has been fully 
engaged in preparing budgets and operating plans. Since the 
Department's leadership has been fully engaged in preparing 
budgets and operating plans, was Secretary Napolitano not also 
fully engaged in the plan to release 2,000 criminal aliens, 
which is greater than 5 percent of the 35,000 that ICE claimed 
it had in detention?
    Mr. Ragsdale, was she not involved in that decision?
    Mr. Ragsdale. She was not involved in that decision.
    Mr. Duncan. Who made the decision?
    Mr. Ragsdale. Myself and Director Morton.
    Mr. Duncan. So you just arbitrarily decided that is how you 
are going to apply sequestration?
    Mr. Ragsdale. It actually had very little to do with 
sequestration. It actually was a much larger function of the 
expiration of the continuing resolution that ended at the end 
of March. Our ADP had been very high earlier in the year to 
meet all the operational needs. It had been over $36,000. Also, 
I will note that last year ICE had almost 477,000 book-in and 
book-outs.
    This represented what I will say is normal detention 
population management. The timing was unfortunate. Certainly 
communication with the Hill certainly could have been better, 
but we were certainly doing nothing other than trying to live 
within our means by releasing those detainees.
    Mr. Duncan. Well, not the line that I want to go down 
today, but I represent 700,000 people. I would say that my 
frustration crosses demographics. It crosses party affiliation. 
These are Americans that are worried about criminal aliens and 
illegals being detained by the Immigration and Customs 
Enforcement, held for a reason, and just released as a way to 
apply sequestration cuts. So my frustration is duly noted on 
behalf of my constituents.
    Mr. Borras, when we sat down in my office, and I took to 
heart your words about how sequestration was going to be 
applied and had to be applied at that time across all the 
different subagencies within DHS equally, but the question I 
have for you is really the planning of how to apply those 
sequestering cuts, because what I understand is that each line 
item in the budget, each categorical has some flexibility 
within that account line to move moneys around. I am not 
talking about, you know, let us say ICE gets whatever their 
budget number is, but within that total budget number, there is 
some flexibility on how they can spend those dollars. Is that 
not correct?
    Mr. Borras. Mr. Chairman, a couple things on the planning 
for sequestration. I do appreciate that time that we spent to 
talk about sequestration. So we have 120 PPAs in the 
Department. So you are right. Each one of those PPAs has to 
apply the reduction mandated by the sequester equally.
    The challenge for us, as I stated earlier, has been that 
that number changed since 2011 to the present, where first when 
we were doing what I would call scenario planning, back in 
August, just with the idea that sequester could happen, we were 
planning based on numbers we got from CBO, looking at almost a 
10 percent reduction on each one of our PPOs. Now, it seems 
like it just would be simple math, PPA, 10 percent reduction, 
but there is an opportunity in certain accounts to make some 
adjustments.
    Then the number changed as we were faced with coming closer 
to January 1, where it was approximately 7.8 percent reduction. 
Then, as I stated, when we got to March 26, of course, that 
number is about a 5 percent reduction.
    So the three things I was looking for from Day 1 is: What 
is my baseline? How much time am I going to have to be able to 
implement it, because that is very important, how much time am 
I going to have? Ultimately what is the final sequester amount? 
It varies throughout all of the components.
    Now, I received a lot of questions over the last several 
weeks about, well, couldn't we have made those adjustments back 
in 2011 to prepare for sequestration? As this committee well 
knows, about 41 percent of the Department's budget is what we 
call 1-year money. So any savings that we would accrue in 2011 
would not carryover into 2012 and certainly not into 2013. 
About 19 percent of the Department's budget is what they call 
2-year money. TSA is largely 2-year money.
    So every department, every component has different 
flexibilities based on the way the appropriation law is 
written. So what I--what I want to convey in all seriousness is 
the complexity of trying to take a specific number, a 
percentage account to a PPA and timing how much time will I 
have to implement it. Will I have 5 months, 6 months, 7 months? 
How much time will I have to plan? How much time will I have to 
provide guidance to all these component agencies so that they 
can begin to prepare?
    We began our planning in earnest in the fall, facing the 
January 1 deadline. We got good guidance from OMB. We began to 
have meetings and provide account structure. But every account 
had to be looked differently. I think what you will find when 
we talk a little bit about CBP, for example, is that their 
largest PPA, their largest account is all salaries and 
expenses, so the reduction, the flexibility to say, I am going 
to do something other than people, was not present since most 
of their money is in salary and expense accounts.
    We can have a whole hearing just on sort of the dynamics of 
sequester and the application of it, but I want to assure you, 
Mr. Chairman, and the Members of this committee, that we worked 
very, very hard to try to figure out as best as possible, but 
we never had a certainty as to, again, what the baseline would 
be, what the sequester amount would be, and how much time we 
would have to implement sequester.
    Mr. Duncan. Right. Well, I understand some of the 
flexibility, some of the frustration that you must have had, 
but you had to look at a divided Government and a divided 
Congress and plan for a worst-case scenario and make those 
plans, but according to your statement, it was recognized that 
then undertaking sequestration planning and implementation 
activities would divert resources from other important 
activities and priorities. It was our hope and expectation than 
rather than force the Department to pursue a course of action 
that would be disruptive to mission-related activities, 
Congress would reach an agreement on deficit reduction package 
as an alternative to sequestration.
    Now, correct me if I am wrong, but you have 225,000 
employees in the Department of Homeland Security: 225,000. You 
couldn't find a working group within that number to focus on, 
in each division, to focus on how we were going to apply 
sequestration cuts. So $60 billion budget. We are talking about 
5 percent; 7 percent is worst-case scenario, possibly. It just 
seems to me that proper management is to look at your worst-
case scenario, what are we facing, how are we going to 
implement those cuts, and then, if it is not that much, then we 
have a windfall, so to speak. That is how I think the private 
sector applies that type of situation if they see a change in 
sales or income from year to year, and I think we want to 
address some of that.
    My time is up, so I am going to yield to the Ranking 
Member, the gentleman from Arizona.
    Mr. Barber. Well, thank you, Mr. Chairman.
    I had some questions for Mr. Winkowski, hopefully with time 
for others. Thank you very much for coming to my office this 
week. It was a very informative discussion. I appreciated 
seeing you in Arizona----
    Mr. Winkowski. Thank you.
    Mr. Barber [continuing]. Last week with the Secretary, and 
I certainly want to thank you for your many years of service to 
the country, and now you have this wonderful new assignment. I 
wish you well with that.
    As you know, Border Patrol Agents work in three 10-hour 
shifts, including 2 hours of overtime per agent per day. There 
are many instances when even more overtime is necessary as the 
agent is in the process of tracking or pursuing illegal 
crossings or doing the necessary paperwork related to 
apprehensions. Despite the necessity of overtime, CBP, 
initially at least, has targeted Border Patrol Agent overtime 
pay as one of the sequestration-related cuts.
    Now, let us be clear about this. When most Americans think 
of overtime, they think, oh, that is something that you can 
just approve or not approve, but the staffing model that is in 
place for Border Patrol Agents includes 2 hours per shift. 
Really the reason that is in there is because it is necessary 
in order to do the job.
    So, given that that is the case, I appreciate that DHS has 
delayed implementation of these cuts, but how, going forward, 
Mr. Winkowski, does CBP intend to address the overtime since it 
has been built into the staffing model, and obviously, the 
Department believed it was critical to getting the job done?
    Mr. Winkowski. Well, I think there is a couple of things 
that we have to do, is, you know, we need to continue to scrub 
the budget here, and that is what we are doing. We have a plan 
that is due up to the Hill, the Department does, on our 
expenditure plan addressing the areas of reprogramming that we 
need. The budget that we have got did have, as I mentioned in 
my oral statement, had $98 million for Border Patrol. That 
money has been put into the premium pay part for Border Patrol.
    So we need to continue to look at ways in which we can 
better align the workforce with the workload. I think we need 
to provide better oversight. But most importantly, I think the 
issue that we really need to come to grasp with is a different 
type of overtime system. When you look at AUO, AUO is a system 
that is very, very difficult to--difficult to manage. We have 
been working with in--several years ago, working with Congress 
and others to look at a system that emulates more what the 
investigators get, the law enforcement availability pay, which 
is good for the employees, but also from the standpoint of 
building that overtime feature, that 25 percent, right into the 
salary.
    So I think there are a number of options out there, but 
kind of the bottom line here is we need to really look at, you 
know, are we spending that AUO money and that premium pay in 
the most fiscally sound way. So, for example, some of the 
things that we are faced with that were done, putting different 
shifts on; instead of having three shifts, having four shifts, 
to begin that process of better managing our AUO, providing 
more oversight.
    So I think the combination of looking for additional 
resources and funding, looking at really kind of transforming, 
if you will, the overtime system that our Border Patrol Agents 
have, coupled with more oversight and really workforce 
alignment is really kind of the path forward.
    Mr. Barber. Let me just explore that a little further. When 
I think about those 10 hours that each agent is assigned when 
they go on a shift, I know that a lot of that has to do with 
getting to the area where they are going to change shift with 
somebody else. We know that the cartels are watching everything 
we do.
    Mr. Winkowski. Right.
    Mr. Barber. They have scouts and they have other ways of 
finding out when we have that gap, if you will, in coverage at 
the border. So the overtime is partly because we want to make 
sure that we have a seamless transition from one shift to the 
other. We have agents who go from their Border Patrol station 
to their field operation. This, as you well know, is stating 
the obvious. This is not an office job.
    Mr. Winkowski. Yeah.
    Mr. Barber. This is a job that puts people into mountains, 
into canyons, on the desert, very rugged conditions.
    Mr. Winkowski. Yeah.
    Mr. Barber. Isn't that overtime--we call it overtime. I 
almost have to say it is normal duty. Isn't that essential to 
getting the job done?
    Mr. Winkowski. Absolutely. I am not suggesting that we 
implement a system that would have gaps. There are ways in 
which you can better schedule your agents to relieve that 
particular person that is in the sky tower, so you don't have 
those kinds of gaps. Those are the kinds of things that I have 
asked Chief Fisher to look at, and we have made some changes 
with additional shifts, but certainly I am not a proponent of 
having gaps while you are changing shifts.
    Mr. Barber. Let me move to a different area that is under 
your responsibility as well. I am very concerned, obviously, 
about the ability of our Border Patrol Agents to do their job. 
When I think about the people I represent, I met last week with 
people in cities along the border. I met with Border Patrol 
Agents, with ranchers, with mayors and council, with the faith 
community. I really wanted to get everyone's input on what they 
saw going on and what sequester would likely do. So I am trying 
to make sure all of the people who are likely to be involved 
are talking to me. I have also spoken at length with people who 
are staffing the ports, and I want to turn to that question 
before my time is up.
    We have to make sure, and I know you would agree with this, 
that we expedite the flow of legal commercial traffic, 
tourists, trucks that bring produce and other goods into our 
country, and we already are experiencing wait times at our 
ports of entry. What is the Department's plan to ensure that we 
not degrade what is already a challenging situation and that we 
have sufficient staffing at the ports of entry to get that job 
done?
    Mr. Winkowski. Yeah. Thank you for that question. I think 
there is a number of things, and one thing is very timely. The 
President's budget, that was sent up to the Hill a few days 
ago, requests 1,600 additional CBPOs, Customs and Border 
Protection Officers out of appropriations, and another 1,877 
that would be funded out of changes to the user fees.
    This is all driven from a workload staffing model that we 
have developed in CBP, particularly the field operations. The 
last 4 years, I think we have worked very, very hard and got 
the right science, the right statisticians in, so we can go 
into each individual port and say these are the numbers of 
people and the types of people that we need in to run that 
particular port of entry.
    So we are real excited about the potential here with the 
fiscal year 2014 budget because we need to fill the booths. The 
problem is, we don't have enough resources to fill all of the 
booths during peak times.
    The other problem that we are facing, quite frankly, right 
now is reduction in overtime. That is why we are seeing these 
peaks. Just when you look at Mariposa, things that normally 
took us 15, 20 minutes to do now are up to 120 minutes. That is 
not good. That is not good for our cargo environment, and I 
don't need to tell you the importance of Mariposa and the 
produce in there.
    So with the President's budget, with us really looking 
through how do we transform the way we do business, I think 
that combination will get us on the right track, but certainly 
the President's fiscal year 2014 budget is a real game-changer 
for us.
    Mr. Barber. Mr. Chairman, just a closing comment. We have 
talked about the security of the Nation, we have talked about 
commercial traffic, both of which are vital to our country, I 
believe. I met over the last couple of weeks with about 150, 
160 Border Patrol Agents and their spouses and their children. 
I wanted to hear from them beyond what we know is going to 
impact on our border security and our port of entry staffing, I 
wanted to hear from them what this means. It is devastating. No 
family in this country could withstand that kind of a reduction 
in income just like that. The morale of the agents and the 
morale of their families is deeply affected by these ideas. 
There is a great deal of uncertainty. We have to make sure that 
we know as quickly as possible how much of this we can restore 
and restore as much of it as we possibly can.
    So thank you very much for your response to my questions.
    Mr. Duncan. I thank the Ranking Member for his questions.
    Now the Chairman will recognize the Ranking Member of the 
full committee, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Ragsdale, ICE has yet to reach a final determination on 
whether you will furlough personnel, as I understand it. Is 
that still pretty much where we are?
    Mr. Ragsdale. At this point we are not planning on 
furloughs, but until the sequestration plan is final, we cannot 
say for certain.
    Mr. Thompson. Okay. Well, so your testimony would be that 
furloughs would not impact your ability to apprehend 
individuals if you decide to go in that direction?
    Mr. Ragsdale. What I can say is this: I cannot give a 100 
percent guarantee that ICE will not face furloughs as we go 
through sequestration. We are not, as part of our planning 
process for sequestration, we are not planning to furlough 
employees at this time.
    Mr. Thompson. Thank you.
    Back, Mr. Winkowski, you know, when I talk to CBP 
employees, a lot of them have factored in overtime in how they, 
you know, make decisions. What would the reduction in overtime 
do for morale of our men and women along our Northern and 
Southern Border?
    Mr. Winkowski. It is really in many ways devastating, kind 
of going back to Mr. Barber's closing statement. At one time 
many, many years ago, I was one of those people earning 
overtime, and I try to put myself in their shoes today, and I 
think I can do that pretty effectively to understand really the 
impact. The fact of the matter is that people do depend on this 
to pay mortgages, to put the kids through school, all the 
necessities of life. This is a dark cloud, in my view, hanging 
over our head.
    You know, I agree that we need to get an answer out there, 
but we need to do it smartly. We need to make sure as we 
continue to drill down the budget and look at some of these 
important gaps that we have and see if we can fill those gaps 
with existing funding, that we need to do it--we need to do it 
smartly. That is going to be, quite honestly, very difficult to 
do.
    So we continue to work real hard on that. You know, the 
whole idea of having to furlough our men and women, the whole 
idea of reducing their paycheck is something that none of us 
want to see happen.
    Mr. Thompson. Thank you.
    Mr. Halinski, although TSA has maintained that TSA, TSO 
will not be furloughed, will there be a reduction or 
elimination of the overtime?
    Mr. Halinski. Sir, we are looking at that, and we look at 
that every day. What we are trying to do is through management 
of the hiring process, and through management of the overtime 
when it is mission-critical, we are looking at trying to 
maintain the level that we have. But it is something we review 
every day, and we are working, because we want to make sure we 
accomplish our mission and at the same time take care of our 
workforce.
    So it is very cognizant on all of our employees, and we 
believe that through managing our hiring process at a certain 
level, paying attention to attrition, looking at the busiest 
airports and adjusting based on that fact, we will be able to 
continue moving forward with that process as well as looking at 
the overtime, sir.
    Mr. Thompson. Well, I am a little concerned, to be honest 
with you, that TSA has the highest turnover rate in DHS among 
TSOs. With that kind of turnover rate and the ability not to 
bring people on and train them, I am concerned that at some 
point we will hit a critical point where we will compromise 
security. Is that a concern of yours?
    Mr. Halinski. Yes, sir, it is. It is one of the things I am 
talking about with managed hiring, sir, and I think it was 
alluded to in earlier testimony. It is the fact that we do 
still have announcements out there. We are hiring to a certain 
percentage because we factor in what our attrition rate is on a 
monthly basis. We have to maintain a certain percentage in 
order to accomplish that mission. So what we look at are those 
busiest airports, what the attrition rates are in specific 
airports, and we will hire to maintain a certain percentage of 
the workforce to maintain and be able to sustain the mission.
    Mr. Thompson. Well, and I, just for the record, want to 
compliment the Chairman on voting against the Budget Control 
Act. It didn't make a whole lot of sense to me. I am glad it 
didn't make a whole lot of sense to him. We can cut it, but the 
way we are going about it does not allow for maximum 
efficiency. However, it is the law, and we all have to abide by 
the law. So I understand you gentlemen have a very difficult 
task, but we could have done it smarter, and obviously more 
efficiently.
    I yield back.
    Mr. Duncan. I thank the Ranking Member for your 
participation, very valuable.
    The Chairman will now recognize the gentleman from 
Pennsylvania, Mr. Rothfus, for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman, and thank you, 
members of the panel, for coming in and testifying, and thank 
you for the work you are doing at the agency.
    I would like to ask a question here that I would like to 
maybe start with Mr. Borras and go down the line.
    Did any of you receive any memorandum or talking points, or 
emails or anything or any other type of communication from 
either the White House Office of Management and Budget, the 
Secretary's office on how you were to be communicating about 
the impact of the sequester on your respective subcomponents?
    Mr. Borras. That would be a no.
    Mr. Rothfus. Mr. Winkowski.
    Mr. Winkowski. Not that I recall, no.
    Mr. Rothfus. Mr. Halinski.
    Mr. Halinski. No, sir.
    Mr. Rothfus. Mr. Ragsdale.
    Mr. Ragsdale. No, sir.
    Mr. Rothfus. Director Ragsdale, are you aware of any 
communications between yourself or Director Morton and anyone 
in the Secretary's office or the White House prior to the 
release of the 2,000 detainees?
    Mr. Ragsdale. Certainly not myself and the White House, and 
certainly not myself and the Secretary's office.
    Mr. Rothfus. Are you aware of any communications between 
the Director's office and----
    Mr. Ragsdale. I am not aware of that. But what I would like 
to simply say is, you know, we had career law enforcement folks 
making those decisions in consultation with the Chief Financial 
Officer. Those were decisions that were made for solely fiscal 
reasons and that is it.
    Mr. Rothfus. Thank you.
    Commissioner Winkowski, why was the decision made to give 
out furlough notices to more than 60,000 CBP employees, 
including 42,000 Border Patrol Agents, before determining your 
actual policy?
    Mr. Winkowski. Now, we were working off of a whole 
different set of numbers than we are today. We are unionized. 
We have to give our employees advanced notification. We were 
moving forward as that being our number, and we needed to make 
sure that we had everybody on notice that we may have to do 
furloughs.
    Fortunately, it hasn't come to that, but that was the right 
and prudent thing to do.
    Mr. Rothfus. Secretary Borras, in spite of, you know, cuts 
to budgets as a result of the sequester, I am hearing a lot 
from my constituents and concerns about the Department of 
Homeland Security's plan to purchase $1.6 billion rounds of 
ammunition, including thousands of rounds of hollow-point 
bullets.
    In response, DHS has explained that these purchases are 
part of its larger strategic sourcing program. Can you explain 
that program in a little bit more detail, please?
    Mr. Borras. Yes, I would be happy to. First, maybe let me 
say something just very briefly about strategic sourcing 
because we apply it not just to the purchase of ammunition, but 
scores and scores of goods that we purchase for the Department 
have been strategically sourced.
    Mr. Rothfus. Can you give me an idea of what type of goods 
those might be?
    Mr. Borras. Well, in addition to ammunition, of course, 
everything from paper, computer equipment, pencils, and paper. 
In fact, we have actually matured our strategic sourcing 
program, and we are also now beginning to acquire not just what 
I would call the typical kind of goods, computers and printers 
and paper, but we are also doing things like handheld radiation 
equipment, which is purchased by CBP, by FEMA, and other parts 
of not only DHS, but other parts of the Federal Government. We 
are now facilitating strategic sourcing buy for that equipment 
to be able to get lower prices and leverage that buying power, 
certainly around the Department, other parts of the Federal 
agencies.
    Mr. Rothfus. Has the Department done this type of strategic 
sourcing before with respect to ammunition?
    Mr. Borras. We have been buying ammunition strategically 
source, I believe, since 2006 or 2007. But it is not an 
uncommon approach to buying ammunition. Again, we leverage the 
buying power.
    A word about the volume. I know a lot of people say we are 
buying 1.8 billion rounds of ammunition. I don't want to get 
too technical here, but basically we use contract vehicles, 
which are called indefinite delivery, indefinite quantity. What 
these are is you set a ceiling. I plan to buy over a period of 
time as much as X amount of goods and you buy it as needed.
    The reality is, over the last several years, our buying per 
year has been pretty consistent, about 120 million rounds, and 
that has not changed. Has not gone up much; has not gone down 
much. So we don't buy 1.8 billion rounds all at once. We may 
never exhaust that ceiling of the contract. It depends on our 
usage both for training and other operational needs.
    But no, this is a very common technique. The pricing, quite 
frankly, I think relative to retail price, is quite 
significant. I think an 80 percent reduction or so. I can get 
you that specific number. But it is a tremendous reduction from 
the price.
    That is what I think you expect us to do. We are applying 
these procurement principles across all different areas, 
whether it is vehicles, whether it is uniforms for our 
officers. It is a very common practice.
    Mr. Rothfus. Thank you.
    Mr. Duncan. Thank the gentleman. Just for the record, we 
have asked GAO to do an audit of the ammo purchases and to get 
to the truth. That is the most I have heard from DHS on the 
subject since it all came about.
    The Chairman will now recognize the gentleman from New 
Jersey for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Halinski, you know, I represent New Jersey's 10th 
Congressional district, which includes the Newark Liberty 
Airport, and so airport security is particularly a concern of 
mine. With sequestration well in place, TSA has stressed that 
it will not mandate furloughs for its TSOs, but rather 
implement a hiring freeze to comply with sequestration budget 
levels. But with that hiring freeze in place, it is estimated 
that more than 1,000 TSO vacancies could result by Memorial Day 
weekend, and that is right before the biggest--one of the 
biggest travel seasons that we know.
    So knowing that, how do you believe that this hiring freeze 
and the rapid reduction in personnel will affect passenger wait 
times, the flow of commerce, and most importantly safety at our 
airports? What is being done to make up for the expected loss 
of 1,000 TSOs?
    Mr. Halinski. Yes, sir. Thank you for the opportunity to 
clarify that, sir. I would like to go back to what my 
colleagues here at the table said and what I said, is that when 
we looked at the sequester, it was a planning process, at least 
in TSA, from worst case to best case and everything in-
between--talk of furlough, talk of hiring freeze--because, 
quite frankly, the numbers that we faced changed on a regular 
basis. Other factors changed on a regular basis. When we 
planned, we were planning for a worst-case scenario.
    Quite frankly, now, when I am talking about managed hiring 
practices, what we are trying to look at is to preclude hiring 
freezes totally across the board for TSOs. We have a percentage 
that we believe will accomplish the mission at each of these 
airports. We are looking critically at each airport, 
specifically our CAT X airports, our CAT I airports. What do we 
have to do, and how many do we have to hire to maintain that 
percentage to accomplish that mission?
    The term hiring freeze right now, I would say, has evolved 
into what we are calling a managed hiring process where we know 
what the percentage is we need to accomplish that mission. That 
is why we do have announcements out. That is why we are 
continuing to judiciously hire TSOs, and you will see that they 
are at critical nodes and it is based on attrition. Because 
what we have attrition in one airport is not the same as we 
might have in another part of the country. So we are trying to 
analyze where those rates are dropping and hire to those rates, 
sir, to cover that and be able to accomplish the mission.
    Mr. Payne. All right, then let me follow up. At Newark 
Liberty, specifically, what are your attrition rates at an 
airport such as that, and do you know?
    Mr. Halinski. I don't know for Newark right off the top of 
my head. I think overall we look at about 8 percent per month 
across the board, and that is what we are hiring at. The 
percentage that we are trying to look at is not 100 percent, 
but we are looking at a percentage near that figure. I would be 
hesitant to say that in an open forum, exactly what the 
percentage is. I would gladly tell you off-line, sir, what that 
percentage is, but it is the percentage that we believe will 
accomplish the mission and be effective for security at that 
airport, sir.
    Mr. Payne. Okay. So the expected loss of 1,000 is in the 
ballpark or----
    Mr. Halinski. Sir, I couldn't tell you at that specific 
airport. I could tell you that we factor in attrition across 
the board at each airport, and when we see the attrition rates, 
we hire to adjust and make sure that the percentage is covered 
to the percentage, the line that we have set that we think will 
be the most effective at that airport. That is across the 
board. Our planning model cuts across all 450 airports in the 
country, sir, Federalized airports.
    Mr. Payne. All right, thank you.
    Mr. Borras, good morning.
    As you know, the State of New Jersey was hit hard by 
Hurricane Sandy. Back in February the Secretary said that the 
Disaster Relief Fund would be reduced by over $1 billion 
because of the sequestration. Last month I heard rumors that 
the Disaster Relief Fund is running out of money, but FEMA said 
that it would have adequate funding for the fiscal year. In the 
interim, we passed a spending bill for this year.
    So, Mr. Borras, what should I tell the people of New Jersey 
with respect to FEMA recovery efforts in New Jersey now that 
sequestration has taken effect? Will recovery be slower?
    Mr. Borras. Well, good morning to you, Congressman, and 
thank you for that question.
    Let me give you a couple of pieces of information that I 
think would assuage the concerns of the residents of New 
Jersey, which I spent about a third of my life living in New 
Jersey as well, and at one point you were my Congressman.
    The DRF is reduced as a result of sequestration, about a 
$941 million reduction in the DRF. That sounds like a lot of 
money; it is a lot of money. What I need to tell you is that 
the current balance in the Disaster Relief Fund is about $13.8 
billion. So I see no opportunity in the near term, certainly, 
and we believe for the balance of the year, that we would 
exhaust the funds in the Disaster Relief Fund--of course 
assuming that we have no disaster that is the equivalent of 
Sandy or Katrina, et cetera.
    FEMA is looking at that very carefully. They do a very good 
job of monitoring the balances in the Disaster Relief Fund. 
Again, absent an unusual number of natural disasters, we 
believe at present, based on the amount in the Disaster Relief 
Fund, that the relief efforts will continue as planned.
    Mr. Payne. Okay. You know----
    Mr. Duncan. The gentleman's time has expired.
    Mr. Payne. Thank you, sir.
    Mr. Duncan. The Chairman will now recognize the gentleman 
from Montana, Mr. Daines, for 5 minutes.
    Mr. Daines. Thank you, Mr. Chairman.
    You know, my background prior to serving in Congress was 
all in the private sector, and I appreciate and applaud the 
efforts you all do every day to try to find ways to do more 
with less in these ever-increasing times of fiscal challenges. 
I have worked in a Fortune 20 company. I have worked in a small 
family construction business. I was part of a start-up 
technology business that grew to be one of our largest 
employers in my hometown, in fact. But I also have dealt with 
the challenges of having to work with budgets, and I am just 
struck by this term, you know, sequestration here in Washington 
as this frightening word. Granted there are better ways to 
reduce spending, perhaps, than this blunt-force instrument of 
sequestration, assuming we had a priority-based approach.
    But I would humbly submit that a 5 percent kind-of 
reduction is a trim, not a major haircut. At least if you talk 
to the folks back in Montana, they are used to having to deal 
with much larger reductions in spending to find ways to make 
the month balance out. Businesses have to deal with this all 
the time. Five percent, it is pretty par for the course.
    When we start getting into 10, 20, 30 percent kind-of cuts, 
that is usually when it gets pretty tough. But oftentimes 
American businesses will find ways, most of the time to do it, 
or else they go out of business. I was just concerned by the 
comment from Secretary Napolitano in her February 14 testimony 
before the Senate committee when she said, no amount of 
planning can mitigate the negative effects of sequestration.
    I think better is possible. I think it also depends upon 
leadership, to have the right attitude to move in and say, you 
know, we have got to find a way to do better.
    I also have learned that sometimes our employees are our 
best sources of ideas from the grassroots up, oftentimes better 
than top-down-driven reductions. My grandmother was a civil 
servant for many, many years in the Federal Government. She 
worked very, very hard. So this is in no way talking about how 
hard our Federal employees work.
    I think they have got some great ideas, and in fact, we 
heard about one potentially out in Montana. Mr. Winkowski, I am 
grateful that you have been out to Montana, Big Sky Country. We 
share that great big Northern Border with Canada, over 700 
miles wide, and there is a lot of dirt between the telephone 
poles, we say out there, on those lonely nights. But we 
actually had some input from some of the good folks that work 
in your organization, which they are great, truly, and they 
were looking at some ideas of moving towards an alternate work 
schedule as a way perhaps to save money.
    You know, the best part about it, you meet these civil 
servants, they are looking for ways here. They know that they 
have got to find ways to do it better because their job is 
going to be on the line here with budget austerity. They have 
suggested some ways they can save money and ease work 
schedules, the classic win/win for the employee, as well as for 
the employer.
    Let me talk a little about what you have seen with these 
AWS proposals, because some of the folks back home say it is 
not getting up high enough, and perhaps you have an answer we 
can work together on that.
    Mr. Winkowski. We have had AWS, alternate work schedules, 
throughout CBP for many years, particularly in more of the desk 
type-of jobs, our import specialists, our mission support 
specialists. It has been the last few years that we have gone 
forward at our ports of entry. We have been able to save a lot 
of money.
    The complexities of the ports of entry is when you have a 
work schedule, an AWS, whether it is 5, 4, 9, or four 10-hour 
workdays in a week, you have got to have predictability in what 
you do at your job. So that is, you know, it is better suited 
for those individuals that have the desk job, the mission 
support job, the import specialist-type job. It gets a little 
more complicated for our Customs and Border Protection Officers 
because of the ebb and flow of traffic. We are there to serve 
the trade community. We are there to serve the traveling 
public.
    But we have come to grips with that, and working with our 
employees in a number of locations we have, in fact, at 
airports and land borders, have put in alternate work 
schedules, which, to your point, Congressman, have saved us 
money. Still it has not deteriorated the service to the trade 
and to the traveling public.
    Some of the challenges you have with AWS, particularly in 
the smaller ports, and I don't know if you are talking the Port 
of Raymond.
    Mr. Daines. Right.
    Mr. Winkowski. It is a smaller port. That gets a little 
more complicated. Then you have the seasonal, you know, in the 
season, May through September, they go and service some of the 
other temporary ports out there.
    My understanding is, is that we have sat down with the 
union to negotiate an AWS schedule. Raymond had lost a couple 
people which thus made it more difficult for us to put AWS in. 
We are going back to sit down with the union to see if we can 
come up with an agreement on an AWS. I am a big proponent of 
it. We just need to make sure that it doesn't cost us a lot 
more money and it doesn't deteriorate the service aspect of it.
    Mr. Daines. Okay, and I know I am out of time. I would 
encourage that engagement with the Port of Raymond. They have 
got some employees up there I think they have some great ideas 
and I appreciate you listening to them. Thank you.
    Mr. Winkowski. Yeah.
    Mr. Duncan. Thank the gentleman. The Chairman will now 
recognize the gentleman from Texas, Mr. O'Rourke, for 5 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman. I want to thank the 
members of the panel and the men and women who work in the 
agencies that you represent for the work that all of you do, 
work that is critical in ensuring that El Paso remains the 
country's safest city; work that is important in protecting and 
enhancing our way of life as one of the world's largest 
binational communities, and absolutely work that is absolutely 
critical to protecting the economy. In the community that I 
represent, tens of thousands of jobs that depend on the flow of 
people and trade, legitimate flow that is crossing our ports of 
entry.
    But I also want to provide some broader context in that the 
trade, especially that crosses through our ports of entry, 20 
percent of all U.S.-Mexico trade, is critical to supporting 
more than 6 million jobs here in the United States.
    We were looking at the statistics for the States that have 
representation on this committee. In Montana, you have more 
than 20,000 jobs dependent on that; in North Carolina, over 
180,000; in Pennsylvania, almost 250,000; Georgia, almost 
200,000; South Carolina, 85,000; Arizona, 100,000; Mississippi, 
50,000; New Jersey, almost 200,000; and in Texas well over 
400,000.
    So realizing our local critical interests, understanding 
the important role that we play in the National economy, our 
community, which may not understand everything involved in the 
Budget Control Act decision--I wasn't there to vote for or 
against it back in 2011--may not understand why and how the 
ports are staffed the way they are.
    We, one of the poorest communities in the United States, 
have agreed to tax ourselves and add additional resources to 
your budget to work cooperatively to ensure that we get more 
people and shoppers, trade, and job-producing activity across 
our ports of entry.
    What has made that challenging is our inability to 
completely understand your staffing model. I think in my 
position and for this committee to exercise its oversight role, 
I think it is important that you share that with us, that we 
understand it. Also just from, you know, a constituent service 
role, when I get an email or a text from someone who has been 
waiting on the Paso Del Norte Bridge for 3 hours, gets to the 
front of the line, and sends us a picture that shows 3 or 4 of 
the 11 potential lanes are open, the rest are closed at a peak 
travel time, they want to know why you have made the staffing 
decisions that you have made.
    So if you could please help me understand that with an eye 
towards working cooperatively with border communities like ours 
that want to help out.
    Mr. Winkowski. Oh, absolutely, Congressman. I have enjoyed 
a great relationship in my 6 years here in Washington with 
Mayor Cook, and others, and the chamber, and they have been 
very, very strong advocates of CBP and the borders. I think we 
have made a number of improvements on wait times. We have a 
ways to go.
    I look at the workload staff and model that I had mentioned 
earlier as really kind of that game-changer. We need to be able 
to convince you and others that we are a good investment. You 
know, you invest in these 1,600 positions. You make the tough 
choices of changing the user fee so we can bring on another 
1,877. But I have got to convince you during that time frame 
that we are a good investment. You know, I am going to return 
much more to the economy and to the community than what it is 
going to cost to hire these people.
    So in order to do that, we have got to sit down with you, 
other Members of Congress, and the staff, and to go through all 
the science. I think you will find at the end of the day that 
the resource authorization matrix and the entire laydown is 
extremely sophisticated. We brought in a lot of really smart 
people. I think we have taken a whole different approach. You 
know, back years ago when we tried to do this stuff it would be 
a bunch of people like me sitting around with a calculator. It 
is much more sophisticated than that, and I think you will be 
very happy. But, yes, we have got to educate everybody on that. 
I would be more than happy to do that.
    Mr. O'Rourke. I realize I don't have much time left, but I 
will say, if you could share that information with communities 
like ours, I think you will already find us willing partners, 
and I think you will find a more productive relationship if we 
have the data which we can use to make investment decisions 
along with you.
    I also just--I would be remiss in not adding that in 
talking with many of the Border Patrol Agents and the Customs 
Officers that I represent in El Paso, they are also concerned 
about the lack of information that is shared from leadership 
about their jobs, about overtime, about how they can plan for 
their and their family's economic future.
    So would just--I know a number of the other committee 
Members stressed this point--but I would just, you know, add my 
own input that this is critical for us, for them, for morale, 
and to ensure the protection of our borders and our way of 
life, especially in communities like El Paso. So again, thank 
you for your work and your answers.
    Mr. Winkowski. Duly noted.
    Mr. Duncan. I thank the gentleman for his comments and 
questioning. We have got votes in about an hour, and so what I 
would like to do, if Members of the committee have additional 
questions for this panel, I will allow that, and we are going 
to go to a 3-minute time period, just to speed things up. We do 
have a second panel.
    So I will begin the questioning because I had a follow-up, 
or at least a question to the TSA Deputy Administrator Halinski 
about, on February 25, 2013, the White House had a press 
briefing with Secretary Napolitano where she said that such 
delays will cause thousands of missed passenger connections 
daily. To date, have there been any missed passenger 
connections for domestic or international flights? How do you 
track that, I guess is----
    Mr. Halinski. I don't know, sir. Straight up, I can't 
answer that question. I don't know that there have been. I 
would have to go back and look and get back with you on that 
particular day at that particular time. I don't have that right 
off the top of my head.
    I will tell you that when we did the planning for 
sequestration that we continued to reassess in a changing 
environment, and as I said previously, we looked at worst case 
and best case, and we looked at furlough, we looked at hiring 
freeze, and a variety of things. We looked at the impact of 
what would be in different airports, and that was modified 
along the way to where we are now. It might not be that way 
next week.
    I just would have to say at the time and at the place, 
based on the information that we had, you have a tendency to 
look at it at that day, the way this environment has changed. 
So I would go back, sir. I will go back on that day and see 
what was there, because I can't give you a specific answer in 
that regard. But I would tell you that when you are planning in 
an environment like that, and I am going to harken back to my 
days in the military, when you plan and the terrain is changing 
under your feet on a constant basis, it is very difficult, and 
you do plan for the worst, and you expect the worst. You know, 
we are continuing to move forward and adjust as things change 
and things are modified and they evolve, sir.
    Mr. Duncan. I will ask Mr. Ragsdale, because Immigration 
and Customs Enforcement Officers are involved with 
international flights, if you are coming into this country, 
even if you have a connection. Are you seeing a reduction in 
those officers, and is it delaying the flights, do you know?
    Mr. Ragsdale. So at this point we have not--planning to 
really do any more law enforcement hiring for this year. So our 
law enforcement officers, it is roughly around 14,000 people 
was our static workforce. Our homeland security investigations 
agents, where we have groups at the airport, are there to serve 
as CBP's investigators. We are absolutely doing everything we 
can to make sure we are targeting every high-risk investigation 
at airports. But as I said before, in terms of investigative 
techniques that cost additional dollars, we do expect to see a 
reduction in that activity.
    Mr. Duncan. Well, thank you. That is important. Just let's 
keep a dialogue open. I would love to know the matrix that you 
use and what exactly you are seeing.
    Mr. Winkowski, I will come to you on that, but I also want 
to ask you about risk-based approach. The folks in my district 
say: Why are you cutting Border Patrol Agents on the Southern 
Border when we are seeing a lot of the need down there, when 
you could reallocate some resources possibly to apply 
sequestration, maybe from some of the less risky areas for the 
country? Can you answer that for me?
    Mr. Winkowski. Yeah. Well, first of all, I will just remind 
everybody, we haven't, you know, taken any personnel cuts down 
on the Southwest Border, and we have delayed the furlough 
piece.
    Certainly, up on the Northern Border, if I recall 
correctly, the number of Border Patrol Agents we have, about 
2,212 up there. I believe that there is either a Congressional 
requirement on that or a Congressional agreement on that. I 
will stand corrected otherwise, but that is what I believe, so 
it becomes very difficult.
    I think looking at our coastal areas, Miami, New Orleans, I 
think at the end of the day would produce some, but a 
relatively small number of resources in those areas to pull 
from. By far, the bulk of the Border Patrol resources which 
have enjoyed a plus-up, a doubling of Border Patrol since 2004 
down in the Southwest Border at 18,500 or so.
    So I think there is always opportunities, but I think at 
the end of the day it is a drop in the bucket, you know, from 
the standpoint of going in and taking people out of these 
areas. I still have to do the Northern Border. No matter how 
you look at it, I still have to do the Northern Border. It is 
an important border and it requires a Border Patrol presence. 
But streamlining onesies and twosies, I don't think it really 
gets us to where we need to be.
    Mr. Duncan. Thank you. The Chairman will now recognize the 
Ranking Member, Mr. Barber, for 3 minutes.
    Mr. Barber. Well, thank you, Mr. Chairman, and I think that 
last question you asked was well put. You know, the Border 
Patrol, or the Department, ruled out a plan last year, a risk-
based management plan, and we have discussed it in this 
committee before. It is a plan that is still lacking in major 
components, including metrics, goals, and process of 
evaluation.
    I really do think that we have to, if we are thinking about 
risk-based approach, figure out where the highest risk is and 
go there. Obviously, the risk can change rapidly and we have to 
be very nimble in our response.
    My question really has to do with ICE, and how 
sequestration is impacting on ICE. I want to echo an earlier 
comment about, before I get into my question, about the release 
of the detainees. It may well have been in the normal course of 
good decision making, and I don't question that. It may well 
have been an appropriate release, and I don't necessarily 
question that. But what I do ask the Department to do is, when 
a decision like that is being made, at a time like this, when 
so much is focused on the borders, border security, immigration 
reform--don't blindside us. You know, we want to help. We don't 
need to be finding out about these things in the newspaper.
    Having said that, Mr. Ragsdale, prior to sequestration, 
staffing levels within the enforcement and removal operations 
were 8,000 strong and Homeland Security Investigations Division 
was 7,000, and those numbers were already deemed to be 
insufficient. Now that sequestration is underway, how can ICE 
expect to fulfill its mandate to apprehend and process 
apprehensions, and thus safeguard the public, if essential 
personnel are furloughed? I might just add that we need to 
continue to increase our crackdown on employers who knowingly 
hire people illegally. If you could, talk to us about how you 
intend to do that under sequestration.
    Mr. Ragsdale. Well, to answer your question first, we have 
roughly around 7,000 special agents in Homeland Security 
Investigations and about 6,000 to 7,000 law enforcement agents 
in enforcement removal operations. The way we can have those 
folks do the best work they are capable of, and these are 
professional law enforcement individuals, is to prioritize 
their work. So in the enforcement and removal side, the 
Director has put out several memoranda to focus enforcement and 
removal operations on the greatest risk to public safety, 
including criminal aliens and National security threats, to 
work in lockstep with CBP to protect the border, so recent 
border entrants, illegal entrants, and folks that game the 
immigration system, making sure that we are supporting 
citizenship and immigration services to make sure that folks 
who apply with the immigration process are held to the proper 
standards.
    So looking at that portfolio, we do that in a way that is 
linked to risk. It is really just that simple. We will never be 
in every place at every time, so we are looking at 
transnational criminal organizations that move the most money, 
move the most narcotics, and dismantling those organizations, 
both using our international offices and our domestic offices.
    In terms of worksite strategy, we are looking not only to 
bring as many employers into compliance through the I-9 
inspection process, but also targeting employers that are 
engaging in criminal activity as it relates to their workers 
and their finances and a range of other criminal activity. So 
getting the key criminal worksite cases completed is really the 
linchpin of the strategy.
    Mr. Duncan. The gentleman's time has expired. The Chairman 
will recognize Mr. Rothfus for 3 minutes.
    Mr. Rothfus. I would like to follow up a little bit on what 
Mr. Daines was saying about, you know, the private sector. I 
myself come out of most of my professional career in the 
private sector. When issues come up on restrained, tight 
budgets, there is always an effort, I think, to look at 
redundancies or ways you can get some efficiencies.
    You know, I was taking a look at some the org charts of 
what we have across the agency, and I notice, for example, that 
each of ICE, each of CBP, each of TSA, there is a leg affairs 
or Congressional affairs shop, there is a public affairs shop, 
there is a policy shop. We also have similar components at the 
agency level. As we look at, you know, pressure on the front-
line operations and making sure that we are having adequate 
resources on the front line, is consideration being given at 
all, perhaps, you know, through the Management Directorate--Mr. 
Under Secretary, this is for you--to look for efficiencies? You 
know, why do we need a leg affairs shop in each component? 
Could not we be using the resources in those components, 
putting them on the front line, and then relying on the agency 
level for those functions?
    Mr. Borras. Well, thank you for your question. I, too, come 
out of the private sector, and clearly I don't think we would 
organize our corporate environment the way we organize the 
Federal Government, for a variety of reasons. We wouldn't 
implement a sequester-type activity in the private sector the 
way we implemented it in the Federal Government. That is not 
good or bad. That is just the difference between the way that 
we operate our fiduciary responsibilities.
    I appreciate your point on looking for efficiencies, and I 
will specially address your question and just make the point 
again, we have been carving out efficiencies out of the 
Department. We have documented over $4 billion of savings and 
cost avoidances. In addition, we have had to maintain basically 
the same level of service, as I said in my opening statement, 
over the last 3 years with a 4 percent reduction. So we have 
had no slow in the cost of growth either in personnel, salaries 
aside increase. There still are other personnel costs that 
continue to increase. We have reduced travel. We have reduced 
our conference spend.
    Organizational movement, that is a very interesting 
question. This is a very complex organization. We try to find 
that balance between how much do we centralize in an 
organization certain activities, like legislative relationships 
with this committee and others, both in the House and the 
Senate side? How much do we balance the ability to do 
procurement for CBP, ICE, TSA, and others, locally or 
centrally?
    I can tell you that this Congress, many Congresses over the 
last 10 years have not favored a large headquarters, a large 
corporate environment to perform these functions centrally for 
the components. I think that makes sense. It so specialized. 
The nature of the issues that we have heard today from both 
CBP, TSA, and ICE are so complex, it would be virtually 
impossible for us to have very generic legislative folks that 
would be conversant on all of these issues, No. 1.
    No. 2----
    Mr. Rothfus. But don't we----
    Mr. Borras. Please.
    Mr. Rothfus. I mean we have businesses in the private 
sector that are very large that have one central communication 
shop.
    Mr. Borras. Absolutely. I am not sure that communications 
for the Federal Government would be the right thing. There are 
areas, like in financial management and procurement and IT, 
that we should look at increasing centralization. All I can 
tell you is, if you look at the Department's management budget, 
which has declined every year since I have been here, and every 
attempt to look at ways to strengthen management and provide 
additional resources has been rejected, a good point, I will 
say.
    Accounting and auditing. Oftentimes I am asked, why doesn't 
DHS--which, by the way, we are on the verge of getting a clean 
audit--but why haven't we been able to do that? Oftentimes I am 
pointed to other Fortune 100 companies. No Fortune 100, no 
Fortune 500, no Fortune 1000 company would have what I have, 
which is 40 people in our financial controls area to oversee a 
$60 billion enterprise. It just wouldn't happen.
    So there are opportunities for efficiencies. We have been 
doing it. We have gotten over $4 billion worth of efficiencies. 
I might add that the proposal, the President's proposal for the 
budget for fiscal year 2014 reduces DHS by an additional 2 
percent. I will continue to have to struggle to find 
efficiencies to make that, maintain our current services.
    But I think your main point is very valid. I hope we can 
continue to dialogue with this committee about ways in which we 
can look at our management in the Department and try to make 
some good choices about how we have maintained either 
distributed system, work in the components versus work in the 
headquarters.
    Mr. Duncan. The gentleman's time has expired. The Chairman 
will now recognize the gentleman from Texas, Mr. O'Rourke, for 
3 minutes.
    Mr. O'Rourke. Thank you.
    I realize the sequester forces some short-term decisions 
that are very painful. No one likes sequester. Everyone agrees 
that it is a very blunt, perhaps ineffective way to deal with 
budget concerns. But does it also provide an opportunity, 
perhaps, to rethink some larger long-term projects that you are 
currently invested in? The question comes from concerns that 
many of us have and many of my constituents have about the 
Secure Border Initiative and the virtual fence boondoggle from 
the last decade and the billions of dollars spent and perhaps 
wasted on that project.
    You know, I think personally, I would like to see us review 
projects like that before we cut personnel, overtime, diminish 
morale, and imperil, you know, the economic future of the men 
and women who are working in these agencies.
    So are there any plans or programs currently under review 
that are in that same category as SBI?
    Mr. Winkowski. Well, I like to think we are over the SBI. 
We have rethought that. Mistakes were made, as you said. We 
have got the Arizona plan rolling out. We have got pieces of 
that implemented where we continue to move forward. Very 
confident that on the Integrated Fixed Towers, that we are in a 
good place. We should see some movement here from the 
standpoint of testing systems of that in the not-so-distant 
future.
    So I think from the standpoint of the technology piece, and 
when we look at this whole issue of what do we need down on the 
Southwest Border, it is really that technology piece that we 
need, that level of sophistication from technology.
    I think, though, you know, it may be, perhaps, Congressman, 
a little different direction. Sequestration does give you a 
forcing function to sit down and really look at your budget. 
Okay? I like to think in CBP that we consistently do that. I 
can sit here for a long time and talk about the efficiencies 
and the hundreds of millions of dollars that we have returned 
to the Government by making changes just recently, elimination 
of the I-94, air passengers, eliminate $16 million a year in 
costs.
    But I think we have to look at, you know, what is next 
here? So from my standpoint, we saw sequestration coming. We 
looked at opportunities. We put hiring pauses on in the mission 
support side, and now today we sit on 523 vacancies. We have to 
be concerned with that because some of these functions have to 
get done. You want to make sure you don't put men and women in 
uniform in those. So we are balancing that.
    But I think some of the bigger things that really kind of 
is on your radar screen, but a sequestration really, you know, 
forces you to perhaps look at the time line more aggressively. 
This whole issue of rent, for example, is I think a good 
example in CBP. I am told we pay about $600 million a year in 
rent. When you look at telework, when you look at what they 
call hoteling, where you really don't need everybody at work. 
The Ronald Reagan Building, for example, we pay $40 million a 
year in rent there. I bet you that at any one time we probably 
don't have 30 percent of the people that are assigned there in 
today. You know, they are on vacation, they are on travel, they 
are doing other things.
    So I think those opportunities. When you have a sequester, 
as painful as it is, and none of us like it, it does force you 
to look at those types of opportunities and, that is what we 
are doing.
    Mr. O'Rourke. I appreciate the level of scrutiny then that 
you are putting these longer-term non-personnel commitments 
under. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Duncan. The gentleman's time has expired. But I am 
going to ask Mr. Borras to answer that question as well. About 
to jump out of your seat to answer that, so I will give you a 
few seconds here.
    Mr. Borras. I will keep my seatbelt on. No, I really 
appreciate the question, and I love it. There are two quick 
points I want to make. First of all, of the $3.2 billion that 
we are cutting as a result of sequestration, $2.1 billion of 
that is non-personnel. So I want to assure you and this 
committee that this is not all personnel. Only a little over $1 
billion of it is personnel. So there are a lot of reductions. 
That is a lot of money. I think, Members, your constituents 
would understand that. Two-point-one billion dollars is a lot 
of money of cost that we are reducing from there that is not 
personnel. No. 1.
    I think the Deputy Commissioner or Acting Commissioner 
articulated one example. But there are so many examples that, 
not just sequestration, but the reality of our fiscal times 
over the last several years has forced us and is continuing to 
be in many ways an important forcing function to revisit sort 
of our conventional wisdom, our basic assumptions on how we 
deliver services.
    I will give you just one example that will be very brief. 
We maintain an aviation fleet both in Customs and Border 
Protection and in the U.S. Coast Guard. Historically, those 
fleets are maintained, operated, and acquired separately. We 
have been spending the better part of the last year with 
wonderful cooperation from both CBP and Coast Guard looking at 
how--this is long-term, this is 10, 15 years out--how do we 
transition that aviation fleet into potentially a common 
aviation fleet? How do we consolidate the buy so that we are 
not buying 29 different types--I am making that number up--of 
aircraft, but we are buying a smaller number and we are being 
smarter about how we operate it. I appreciate the Deputy 
Commissioner talking about a lot of the administrative and 
backroom--rent, the size of our fleet--as example that we are 
spending a lot of time and energy on. We are consolidating our 
data centers so that we don't have these redundant physical 
centers just to house computer equipment.
    Mr. Duncan. Thank you so much for that.
    Mr. Borras. Thank you, Mr. Chairman.
    Mr. Duncan. Yes, sir.
    Well, that concludes the first panel. I want to thank the 
distinguished panelists for being here today and sitting 
through this. I look forward to working with you. There were 
some questions that were asked today I think some follow-up is 
required on, so I look forward to getting that back.
    I will dismiss the panel. We will get ready for panel one. 
Thank you, gentleman. Panel two, rather.
    Okay. We will go ahead and get started with panel two. We 
are pleased to have an additional witness before us today on 
this important topic. Let me remind the witness that their 
entire written statement will appear in the record.
    Mr. Brandon Judd is our panelist. He is the president of 
National Border Patrol Council and has over 15 years of Border 
Patrol experience. The National Border Patrol Council is a 
professional labor union representing more than 17,000 Border 
Patrol Agents and support staff. The NBPC was founded in 1967. 
Its executive committee is comprised of current and retired 
Border Patrol Agents.
    So I want to thank you for being here today, and I will 
recognize you, Mr. Judd, for your opening statement.

 STATEMENT OF BRANDON JUDD, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Judd. Thank you, Chairman Duncan and Ranking Member 
Barber. It is my pleasure to be here this morning representing 
the nearly 17,000 men and women of the United States Border 
Patrol and its support staff. I hope to convey their message in 
a manner that will help you understand the difficulties of 
securing our Nation's borders. As a Border Patrol Agent, I can 
give first-hand testimony of the difficulties my fellow agents 
face on a daily basis.
    Our mission is to secure our borders from those who would 
do us harm both physically and economically. Border Patrol 
Agents are tasked with deterring, arresting, and seizing 
terrorists, weapons of mass destruction, narcotics traffickers, 
and human traffickers. At times, we encounter the worst of the 
worst.
    Due to such, I want to make this point very clear. The 
effects of sequestration and the across-the-board cuts that 
have been proposed will have a negative effect on border 
security. Congress has mandated that the agency maintain a 
workforce of at least 21,370 Border Patrol Agents. For as long 
as I can remember, this workforce has performed 10-hour 
workdays, which has allowed the agency to maximum the number of 
agents in the field at any given time. These 10-hour workdays 
have also allowed the agency to operate with only three shifts 
instead of four to six shifts, which would deplete effective 
coverage on the border.
    Under sequestration, it is being proposed to scale back the 
number of hours agents will work from 10 to 8. This will 
effectively reduce our workforce by 20 percent or the 
equivalent of losing 5,000 agents.
    Over the past 10 years, we have made incredible strides in 
making our borders safer, but we have done this by the infusion 
of Border Patrol Agents and technology alike. It would be 
irresponsible to give back the gains we have fought so hard to 
earn in an effort to save a few dollars.
    Some have suggested that instead of 10-hour workdays across 
the board, we should concentrate all of our manpower in trouble 
areas, such as the Tucson, Arizona, or Rio Grand Valley, Texas, 
Border Patrol sectors.
    In response to this idea, I would simply point out the 
recent past in hopes that we do not create the same problem 
that the Border Patrol created in the State of Arizona. In the 
early to mid-1990s, San Diego, California, and El Paso, Texas, 
were ground zero for illegal immigration and narcotics 
smuggling. In an effort to combat this problem, the leaders of 
the Border Patrol implemented Operations Gatekeeper and Hold 
the Line. The thought was if they could control these two major 
crossing areas, they could effectively control the border. No 
one thought the smuggling organizations would risk crossing 
their product through the inhospitable deserts of Arizona. 
Nothing could have been farther from the truth.
    Coupled with an extremely strong economy and Operations 
Gatekeeper and Hold the Line, illegal crossings in Arizona 
increased to levels never before seen in the history of the 
Border Patrol.
    For the past 12 years, we have been trying to play catch-up 
to a problem we created. The idea that we can simply throw all 
of our resources at certain areas will repeat the problems of 
the past. We have been making indisputable gains by an across-
the-board enforcement effort, so why would we scrap that by 
repeating past mistakes?
    Sequestration is forcing the hands of our elected officials 
to make cuts at a time when we can't afford these cuts. The 
long-ranging immigration debate is well underway in Washington, 
but it is critical that border security be a part of that 
solution. Across-the-board cuts or concentrated areas of 
specific enforcement will create holes in the border that will 
be exploited by the cartels that control all illegal activity 
in border regions.
    The long-term answer is not a short-term Band-Aid, which 
brings me to my second point: We need a pay reform system that 
will save the taxpayer and Government money while increasing 
border security and giving a sense of stability to Border 
Patrol Agents. I believe I am the first and probably the last 
labor organization you will ever hear from that is asking for a 
pay cut in an effort to make a product better.
    I do not do this lightly. Almost all agents who are 
affected by this proposal would take home less pay. However, 
this proposed reform brings about certainty to the agency and 
to the agents; it saves money for the taxpayer; and most 
importantly allows for a consistent level of border security.
    There is legislation that is being circulated that will 
certainly have the positive effect I have discussed, and I am 
imploring you to support this legislation when you get the 
chance.
    In closing, I want to stress the two points I made for you. 
The first is there can be no question that sequestration hurts 
border security. The proposed cuts amount to a 20 percent 
reduction in manpower and is unworkable, given our current 
system and situation. Second, we need a pay system that is 
palatable to the agency, agents, and the taxpayer. The reform I 
have proposed saves tax dollars, reduces overtime pay, and 
brings about financial certainty.
    I submit my remarks on behalf of the 17,000 member agents, 
who are dedicated to their work and our Nation's mission to 
have a secure border while maintaining the overarching 
principles of openness and fairness. I appreciate this time and 
I look forward to your questions.
    [The prepared statement of Mr. Judd follows:]
                   Prepared Statement of Brandon Judd
                             April 12, 2013
    Chairman Duncan, Ranking Member Barber, distinguished Members of 
the committee, it is an honor for me to appear before you today. I 
serve as the president of the National Border Patrol Council and I 
speak on behalf of more than 17,000 Border Patrol Agents who secure 
over 6,000 miles of international boundaries between Mexico and Canada, 
and 2,000 miles of coastal waters.
    Today, I am here on behalf of the Council to discuss the effect of 
sequestration on border security. Let me be brief and clear: There can 
be no question that across-the-board cuts affect border security. As 
Border Patrol Agents, we strive to apprehend and deter terrorists, drug 
smugglers, human traffickers, and illegal immigrants from entering the 
United States. In 2011, we made over 350,000 apprehensions on the 
Mexican border alone. We seized close to 11,000 pounds of cocaine, and 
2.6 million pounds of marijuana. Agents are vital even at the 700-mile-
stretch where fencing has been installed. Without constant surveillance 
and patrol, we know from experience that the fences would be quickly 
cut through, climbed over, or otherwise rendered useless by drug 
cartels and traffickers, no matter how advanced our electronic system 
is.
    To achieve border security, over 20,000 agents work in three, 10-
hour shifts, including 2 hours of overtime per agent per day. This 
structure is the equivalent of having 25,000 full-time Border Patrol 
Agents, but at a far lower cost to taxpayers. It is important to 
understand that the current border security system relies on agents 
working overtime as a cost-saving measure because it is far more 
economical to pay for 2 hours of overtime than it is to recruit and 
train 5,000 new agents, especially under current fiscal constraints. 
The proposed sequestration cuts would mean the loss of 2 hours of 
manpower per agent per day or the equivalent of scaling down the 
workforce to approximately 16,000 agents.
    The agents typically use the 2 overtime hours to cover shift 
changes when points of entry at the border are the most vulnerable. Let 
me provide the Members of the committee with some examples to 
illustrate the point:
  <bullet> The 2-hour overtime is commonly used to track illegal 
        crossings that occur during shift changes. Drug cartels are 
        well-informed about the agents' shift changes and information 
        relevant to their chances of apprehension, from the number of 
        beds available at detention centers to the amount of time it 
        takes to process through a holding tank. They know their 
        greatest chance for crossing the border illegally is at the end 
        of each shift, and many plan their crossings accordingly. As a 
        result, agents routinely track and investigate groups that have 
        attempted or succeed in crossing the border during their 2-hour 
        overtime work period.
  <bullet> Similarly, criminal cartels often attempt to drive their 
        vehicles through the border during shift changes, seeking to 
        take advantage of the change in personnel. Agents routinely 
        investigate leads or drive in pursuit of those vehicles during 
        the 2-hour overtime period.
    Some have suggested that the agency can limit overtime manpower 
only to areas that are currently experiencing high apprehension rates, 
such as in Casa Grande, Arizona. Let me respond to this suggestion by 
providing an example from our recent history. Many of you may remember 
that in the mid-1990s, strict enforcement coupled with extra manpower 
in San Diego, California, and El Paso, Texas, caused the pattern in 
illegal immigration to shift to Arizona almost overnight. As a result, 
while San Diego and El Paso might have experienced a temporary drop in 
illegal crossing, towns like Nogales in Arizona saw their illegal 
crossings rise to the level of chaos, ultimately requiring a 30 percent 
increase in Border Patrol Agents to staff the crossing point. If we 
selectively limit manpower to current locations with high volumes of 
illegal crossing, all we have really achieved is in shifting the point 
of illegal entries to a different location, especially given how well-
informed organized crime has become in the past decade. Our borders can 
never be secure if we do not have a comprehensive and thoughtful 
approach to border security. If we constantly fall one step behind 
criminal cartels, and if the best we can do is to merely shift the 
points of illegal entry, we will have accomplished nothing.
    The 20,000-plus Border Patrol Agents are our Nation's first line of 
defense in combatting terrorism, drug trafficking, and illegal 
immigration. The current system relies on these agents working three, 
10-hour shifts to achieve a stable border. The proposed sequestration 
cuts amount to a 20 percent reduction in our work force--in our ability 
to detect illegal weapons, to track and apprehend drug and trafficking 
cartels, and to prevent illegal entries.
    Let me now move on to my second point. Border security should not 
ebb and flow with Washington's political climate. The current 
sequestration, if implemented would be detrimental to our Nation's 
security by suddenly reducing Border Patrol's workforce by 20 percent. 
Instead, we need a stable pay and administrative system that reduces 
reliance on overtime, while maximizing the existing workforce. The 
proposed system should save costs for the taxpayers, bring certainty to 
the agency's budget, and most importantly--provide a consistent level 
of patrol, surveillance, and investigation that leads to apprehension 
and deterrence.
    To that end, the Border Patrol Council has proposed a long-term 
solution that results in a $6,000 loss of annual income per agent, 
while maintaining the level of manpower necessary at borders and ports 
of entry without relying on further hiring. We achieve this goal by 
modifying the current overtime pay scheme.
    Under current law, Border Patrol Agents who work in excess of 85.5 
hours over a 2-week pay period are paid overtime of time-and-half up to 
the 100-hour threshold. Overtime that is worked beyond the 100-hour 
threshold is paid at half time. We propose to save costs by reducing 
overtime pay in exchange for a one-time, two-step increase in the 
agent's base pay. These changes will save the Border Patrol over $40 
million in the first year and $125 million annually every year 
thereafter.
    We do not propose these changes lightly. Almost all agents who are 
affected by the proposal would take home less pay as a result. However, 
the proposal, if adopted, would provide certainty for everyone--the 
agency, the 20,000-plus Border Patrol Agents, and the public--by 
providing a predicable budget, and a consistent level of border 
security that is resilient.
    In conclusion, I want to stress the two points I made today for the 
committee. The first is there can be no question that sequestration 
hurts border security. The proposed cuts amount to a 20 percent 
reduction in manpower and is unworkable given our current system of 
three, 10-hour shifts without hiring and training more agents. From a 
policy standpoint, it is important to understand that in addition to 
apprehension, the agents' reliable and consistent presence, day in and 
day out, deters criminal cartels, traffickers, and terrorists by making 
it more difficult and costly for them to enter the United States 
illegally. Second, it is high time that we implemented a pay system 
that is palatable to the agency, agents, and the tax payer. The reform 
I have just proposed saves tax dollars, reduces overtime pay, and 
brings about financial certainty to both the Border Patrol Agents and 
the agency alike. I submit my remark on behalf of the 17,000 member 
agents who are dedicated to their work and our Nation's mission to have 
a secure border while maintaining the overarching principles of 
openness and fairness.
    Thank you for your time and consideration. I look forward to 
answering your questions.

    Mr. Duncan. Thank you, Mr. Judd, for your opening 
testimony.
    Just for the record, let me say that, in my opinion, there 
are two valuable assets for Customs and Border Patrol: The 
first one is personnel, and the second one are canines. They 
are very effective. We have boots on the ground. We are 
securing the border. But I have seen, just in my short time of 
being in Congress and since 2008, we have increased CBP 
personnel by 4,000 agents. We have doubled the size of CBP over 
the last decade, or since 9/11, and so--and I appreciate your 
being here.
    I just want to ask you, CBP failed to adequately estimate 
its salary needs for its operational workforce, resulting in an 
estimated $214 million shortage in fiscal year 2013, and they 
had to ask for some flexibility in the substitute continuing 
resolution recently to make up for that shortfall.
    So just having kept that in--keep that in mind. I am 
interested in your proposal. I am interested in the changes of 
two-step increase in the agent's base pay, and I am also 
interested in how you calculate the savings, the numbers that 
you provided in your statement. Then I would also like you to 
talk a little bit about how those step increases may affect 
long-term liabilities for our Nation with regard to pensions 
and retirement and other things. So if you could address, (A), 
the two-step increase plan a little bit more on the record, and 
then also how you calculate the savings, and then what impact 
you think that will have, a reality would have, going forward 
for the future liabilities of the Nation.
    Mr. Judd. Thank you. Our current overtime system is 
administrative uncontrollable overtime. You are actually 
getting us on a very cheap scale. We don't receive time-and-a-
half. In some cases, we don't even receive straight time. For 
the first 5.5 hours of our overtime, we are receiving straight 
time; for the next 14.5 hours, we receive a little bit less 
than time and a half, and anything over 100 hours in a pay 
period, which our agents regularly work, we receive half time 
of our base pay. So you are already getting us on a very cheap 
wage.
    What we have proposed is to get rid of that time-and-a-half 
and just take us to straight time. That by getting rid of that 
time-and-a-half, you are looking at a savings of anywhere 
between $115 million to $135 million.
    To offset that initial loss, what we are offering you is we 
are offering to give you $7,000, and in return, we are asking 
for $4,000 back to offset the loss in the first year that 
agents would face.
    We are a very, very young workforce. The Border Patrol has 
doubled in the last few years. Because we are a young 
workforce, each one of us will most likely reach the highest 
step that we can reach. So the calculations in retirement are 
still going to be there, because most of us are going to reach 
that step.
    What you are doing by giving us the two-step increase is 
you are offsetting the initial loss that we would face of the 
$7,000, but as far as the retirement goes, because we are 
mostly--because most of us are going to reach that, the highest 
step, the retirement is going to be the same.
    Mr. Duncan. Just a follow-up from the Panel No. 1, and that 
is an allocation of resources and how they apply to 
sequestration. My understanding is there has been a reduction 
in CBP personnel across the whole agency, versus a 
reallocation--and we asked Mr. Winkowski this question--a 
reallocation of those resources from some areas that are less 
risky and mitigate that risk by increasing or keeping personnel 
the same in the higher-risk areas and primarily the Southern 
Border at the present.
    How would the union feel about reallocation of resources, 
and could possibly mean the relocation of personnel from their 
current homes or their current stations to other areas?
    Mr. Judd. The reallocation of resources, what I think that 
we need to look at first and foremost is without the agents in 
the areas where you need them, you are not going to be able to 
arrest the number of illegal aliens that cross the border or 
the narcotic smugglers that are crossing the borders. The 
technology is great. We have lots of drones. In fact, we are 
using a VADER system right now that is on loan from the Army. 
Those drones and that system is fantastic. They can see the 
people that are entering the country. But without the agents to 
arrest those people that enter the country, those systems just 
don't work, so what we would--what we would implore you to look 
at is to look at if we overstuff ourselves with a bunch of 
technology, do we have enough people to arrest the aliens that 
are there?
    As far as reallocating resources to different areas, we 
have been doing that for years. We have a voluntary relocation 
program that we continue to ask the agency to use on a regular 
basis. This voluntary relocation program allows the agency to 
move us on a very, very cheap scale--not even close, it is a 
fraction of what the Department of Defense pays to move a 
person from one area to another area. So we absolutely 
encourage that.
    Mr. Duncan. Yeah. Thanks for that. My time is expired.
    I will yield to the Ranking Member, Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    Before I begin my questions, I would like to ask unanimous 
consent that a written statement provided to the subcommittee 
by the president of the National Treasury Employees Union be 
inserted into the record.
    Mr. Duncan. Without objection, so ordered.
    [The information follows:]
 Statement of Colleen M. Kelley, National President, National Treasury 
                            Employees Union
                             April 12, 2013
    Chairman Duncan, Ranking Member Barber, distinguished Members of 
the subcommittee, thank you for the opportunity to provide this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) Officers and trade enforcement 
specialists who are stationed at 329 land, sea, and air ports of entry 
(POEs) across the United States. CBP employees' mission is to protect 
the Nation's borders at the ports of entry from all threats while 
facilitating legitimate travel and trade. CBP trade compliance 
personnel enforce over 400 U.S. trade and tariff laws and regulations 
in order to ensure a fair and competitive trade environment pursuant to 
existing international agreements and treaties, as well as stemming the 
flow of illegal contraband such as child pornography, illegal arms, 
weapons of mass destruction, and laundered money.
    In fiscal year 2012, CBP seized more than 4.2 million pounds of 
narcotics across the country. In addition, the agency seized more than 
$100 million in unreported currency through targeted enforcement 
operations. At ports of entry in fiscal year 2012, CBP Officers 
arrested nearly 7,700 people wanted for serious crimes, including 
murder, rape, assault, and robbery. Officers also stopped nearly 
145,000 inadmissible aliens from entering the United States through 
ports of entry. Inadmissibility grounds included immigration 
violations, health, criminal, and National security-related grounds. 
Additionally, CBP agriculture specialists conducted more than 1.6 
million interceptions of prohibited plant materials, meat, and animal 
by-products at ports of entry while also stopping nearly 174,000 
potentially dangerous pests.
    CBP uniformed and non-uniformed personnel at the air, sea, and land 
ports of entry not only ensure a secure border, but also collect 
significant revenue through trade compliance and enforcement. CBP is a 
revenue collection agency, processing more than $2.3 trillion in fiscal 
year 2012 in total trade value. CBP processed 25.3 million cargo 
containers through the Nation's ports of entry in fiscal year 2012, up 
about 4 percent from the previous year. In addition, CBP conducted 
nearly 23,000 seizures of goods that violate intellectual property 
rights, with a total retail value of $1.2 billion, representing a 14 
percent increase in value over fiscal year 2011.
    CBP personnel at the ports of entry are key to achieving and 
maintaining a secure border and the greatest current threat to border 
security is sequestration under the Budget Control Act that went into 
effect on March 1.
    Under sequestration, CBP's Salaries and Expenses (S&E) 
discretionary and mandatory accounts must be reduced by $512 million. 
This number includes a cut of $75 million in CBP user fee accounts. 
User fees will continue to be collected from industry to provide travel 
and trade security, immigration and agriculture inspection services, 
but CBP will be prohibited from using a portion of these user fees. 
User fees are not a tax, by law they pay for specific services provided 
by the Government. Sequestration limits the use of these collected fees 
to pay for CBP inspectional services.
    Also, under sequestration, the cut to the CBP S&E account included 
a reduction of $37.5 million for inspectional overtime at the POEs. 
Overtime is essential when staffing levels are insufficient to ensure 
that inspectional duties can be fulfilled, that CBP Officers have 
sufficient back-up and that wait times are mitigated. In CBP's own 
words, ``Overtime allows CBP Office of Field Operations to schedule its 
personnel to cover key shifts with a smaller total personnel number.'' 
The sequester significantly cuts overtime hours and will result in 
longer wait times at the ports of entry.
    On March 26, the President signed a Continuing Resolution (CR) to 
fund the Government through the end of the fiscal year. The CR does not 
cancel the sequester. Congress did provide some additional funding for 
the CBP S&E account in the CR, but also required CBP to maintain the 
current CBP Officer staffing level. Maintaining current staffing floors 
means CBP cannot use all of the increased funding in the CR to reduce 
furloughs for current employees since it must continue to fill vacant 
positions.
    Prior to enactment of the CR, the CBP sequester plan required all 
CBP employees to be furloughed up to 14 days during the remainder of 
fiscal year 2013 or 1 day per pay period beginning early to mid-April 
through September 30, resulting in a 10% pay cut for all CBP employees. 
The initially-proposed furloughs would have exacerbated an already 
unsustainable shortage of CBP inspection and enforcement personnel at 
international air, sea, and land ports of entry.
    With the additional funding included in the CR, however, there may 
be a reduction in the number of furlough days that all CBP employees 
must take before the end of the fiscal year. In light of the new 
funding bill, CBP is re-evaluating previously planned furloughs, and 
has postponed implementation of furloughs pending that re-examination.
    There is no greater roadblock to legitimate trade and travel 
efficiency, however, than the lack of sufficient staff at the ports of 
entry. Understaffed ports lead to long delays in our commercial lanes 
as cargo waits to enter U.S. commerce.
    Those delays result in real losses to the U.S. economy. According 
to a draft report prepared by the Department of Commerce, border delays 
in 2008 cost the U.S. economy nearly 26,000 jobs and $6 billion in 
output, $1.4 billion in wages, and $600 million in tax revenues 
annually. According to the same report, by 2017, average wait times 
could increase to nearly 100 minutes, costing the United States more 
than 54,000 jobs and $12 billion in output, $3 billion in wages and 
$1.2 billion in tax revenues. The cumulative loss in output due to 
border delays over the next 10 years is estimated to be $86 billion.
    More than 50 million Americans work for companies that engage in 
international trade, according to the U.S. Department of the Treasury. 
If Congress is serious about job creation, then Congress should support 
enhancing U.S. trade and travel by mitigating wait times at the ports 
and enhancing trade enforcement by increasing CBP security and 
commercial operations staffing at the air, sea, and land ports of 
entry.
    cbp staffing shortage effects in florida, texas, and california
    On February 20, DHS Secretary Napolitano, at the request of 
Florida's Governor Rick Scott, toured the Miami International Airport 
(MIA) with a delegation from Congress and airline and cruise 
representatives and other industry stakeholders. Governor Scott noted 
that insufficient staffing at the new state-of-the-art CBP facility at 
MIA caused a ``bottleneck'' for passengers trying to exit customs. ``As 
a result, customers--often numbering well over 1,000 a day--and their 
baggage are misconnected and must be rebooked on later flights, many 
leaving the next day.''
    In a letter to the Secretary, Governor Scott stated, ``If this 
staffing problem is not corrected immediately, it has the potential to 
damage Florida's international competiveness. More than 1 million jobs 
in Florida depend on international trade and investment. The 
engineering models and recommendations reflected that for optimal 
operations a minimum of 62 of the 72 lanes must be staffed at peak 
arrival periods.''
    Congressman Mario Diaz-Balart said after the tour, ``Tourism is the 
backbone of Florida's economy, and DHS must do more to adequately staff 
our ports. Our CBP agents are working diligently to protect us from any 
security threats, illegal substances, and invasive pests and diseases 
entering the United States, but the lack of staffing is creating long 
and disorganized lines for travelers, and discouraging travelers from 
visiting and using South Florida's ports.''
    Another State with on-going significant CBP personnel staffing 
shortages is Texas where more than 420,000 jobs depend on trade with 
Mexico. Texas leads the Nation with 29 international ports of entry. 
The Houston field office manages 19 of these, including the Port of 
Houston, George Bush Intercontinental Airport (IAH) and airports at 
Dallas-Fort Worth, Austin, San Antonio, Midland, Lubbock, Amarillo, and 
also Oklahoma City and Tulsa. Currently IAH wait times are considerably 
longer than Houston's airport competitors--Dallas and Atlanta. And the 
city of Houston is considering a proposal to allow international 
commercial flights at Hobby Airport.
    In El Paso, city officials have used the word ``crisis'' to 
describe the sometimes hours-long wait times at the local ports of 
entry and are considering legal action over the environmental effect of 
international bridge wait times and ``CBP's failure to keep those 
booths open.''
    Wait times of up to 3 hours at Los Angeles International Airport 
(LAX), the Nation's third-busiest airport moved 10 Members of Congress 
to demand that CBP transfer CBP Officers from other ports of entry to 
LAX. Despite continuing staffing shortages at LAX, the Bradley terminal 
is undergoing a $1.5 billion overhaul that calls for expanding the 
number of CBP inspection booths to 81.
    Also in California, Congress has funded the first phase of a $583 
million upgrade of the Port of San Ysidro. When the first phase is 
completed in September 2014, there will be 46 inspection booths--up 
from the current 33. An additional 17 booths would be built in the 
third phase bringing the total number of booths needing CBP Officer 
staffing from 33 to 63.
    As noted in these examples, Congress, local jurisdictions, and 
industry stakeholders continue to act as if CBP can staff whatever is 
built.
    CBP cannot adequately staff existing port facilities under current 
funding levels provided by Congress. Proposed port expansions, allowing 
international flights at airports that are currently not served by 
international flights, and other new construction to address the growth 
in international trade and travel, is not possible under the 
Congressionally-mandated sequester. And, if the sequester, which is 
intended to be permanent, continues into fiscal year 2014, the current 
levels of CBP staffing, as set by Congress in statute, will be 
unsustainable.
 cbp's on-going poe staffing shortages and the fiscal year 2014 budget
    The sequester only exacerbates CBP's on-going staffing shortage 
problem. In 2008, the Government Accountability Office (GAO) reported, 
``At seven of the eight major ports we visited, officers and managers 
told us that not having sufficient staff contributes to morale 
problems, fatigue, lack of back-up support and safety issues when 
officers inspect travelers--increasing the potential that terrorists, 
inadmissible travelers and illicit goods could enter the country.'' 
(See GAO-08-219, page 7.)
    ``Due to staffing shortages, ports of entry rely on overtime to 
accomplish their inspection responsibilities. Double shifts can result 
in officer fatigue . . . officer fatigue caused by excessive overtime 
negatively affected inspections at ports of entry. On occasion, 
officers said they are called upon to work 16-hour shifts, spending 
long stints in primary passenger processing lanes in order to keep 
lanes open, in part to minimize traveler wait times. Further evidence 
of fatigue came from officers who said that CBP officers call in sick 
due to exhaustion, in part to avoid mandatory overtime, which in turn 
exacerbates the staffing challenges faced by the ports.'' (See GAO-08-
219, page 33.)
    Without adequate personnel at secondary, wait times back up and 
searches are not done to specifications. This is a significant cargo 
security issue. A full search of one vehicle for counterfeit currency 
will take two officers on average a minimum of 45 minutes. Frequently, 
only one CBP Officer is available for this type of search and the 
search will then take well over an hour.
    Also, when CBP was created, it was given a dual mission of 
safeguarding our Nation's borders and ports as well as regulating and 
facilitating international trade. It also collects import duties and 
enforces U.S. trade laws. Since CBP was established in March 2003, 
there has been no increase in CBP trade enforcement and compliance 
personnel. In effect, there has been a CBP trade operations staffing 
freeze at March 2003 levels and, as a result, CBP's revenue function 
has suffered and duty and fee revenue collected has remained flat.
    NTEU applauds the administration's fiscal year 2014 budget that 
would end sequestration and provide $221 million to fund 1,600 new CBP 
Officers and mobile equipment. The budget also proposes to increase the 
Immigration Inspection User Fee and COBRA user fees by $2. These user 
fee increases, if enacted, would fund 1,877 additional new CBP 
Officers. Together the appropriations and user fee increases would fund 
3,477 new CBP Officers.
    NTEU would ask that Congress also consider increasing the number of 
CBP Agriculture Specialists and non-uniformed CBP trade operations 
personnel to address the ever-increasing volume of agriculture 
commodities (along with pests) and imports entering through the U.S. 
air, sea, and land ports of entry.
                               conclusion
    As noted by Members of Congress, industry stakeholders, the 
traveling public, and DHS's own Advisory Council, for too long, CBP at 
the POEs has been underfunded and understaffed.
    NTEU applauds the administration's the fiscal year 2014 budget 
submission that adds 3,477 new CBP Officer hires at the air, sea, and 
land ports of entry--1,600 paid for through appropriations and 1,877 
paid for by an increase in customs and immigration user fees that have 
not been increased since 2001.
    But, by allowing the sequester to go into effect on March 1, 
Congress continues to exacerbate staffing shortages at the U.S. ports 
of entry, and the U.S. economy, dependent on international trade and 
travel, will suffer and U.S. private-sector jobs will be lost. 
Therefore, NTEU strongly urges Congress to end the sequester.
    The more than 24,000 CBP employees represented by the NTEU are 
capable and committed to the varied missions of DHS from border control 
to the facilitation of legitimate trade and travel. These men and women 
are deserving of more resources and technology to perform their jobs 
better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
committee on their behalf.

    Mr. Barber. I appreciate that written testimony, because 
while I focused a lot of my concern and questions on the impact 
of sequestration on the Border Patrol, I am aware that there is 
an impact, obviously, on our officers who are at the ports of 
entry, and I want to make sure we attend to both.
    But the impact potentially to the Border Patrol Agents is 
the largest, I think, of any Federal workforce. It could be as 
much as 40 percent cut in salary with the elimination of 
overtime, which is really essential time, and the elimination 
or the reduction by furloughs.
    Last week, as I mentioned earlier, I met in Arizona, first 
of all, at a roundtable that Secretary Napolitano conducted 
with law enforcement, chiefs of police forces and the sheriff 
of the county. I met with members of the Border Patrol in my 
district, met with ranchers. I met with people in the city of 
Douglas, which is a border town, and I heard from all of them 
about their concerns about sequestration.
    When I met previous to that with about 160 Border Patrol 
Agents and their family members, I was--it was a very emotional 
meeting, quite frankly, because seeing the children and seeing 
the spouses of Border Patrol Agents and listening to them talk 
about what are they going to do, how are they going to figure 
out how to manage their household budgets with those kinds of 
cuts? Morale is already, I think, low enough in the Department 
without making it lower this way.
    I also want to thank you, Mr. Judd, for your proposed pay 
plan. I think we need to take a hard look at it, both the 
Department and the Congress, to see how it might better improve 
our border security and get some certainty to agents and to our 
efforts to secure the homeland.
    Let me ask you, Mr. Judd, about the furlough and 
elimination of overtime notices that you received. Of course, 
we have passed a continuing resolution that allows some 
flexibility and restores some money. Let me just ask, if you 
could tell us, I already mentioned the number, but a little bit 
more about the financial impact that this would have on agents 
and their family members, and what would that likely do at that 
level?
    Mr. Judd. That financial impact would be devastating. I 
don't know of anybody that can absorb a 25 to 40 percent pay 
cut. We have built our budgets, our financial structures around 
the pay that we have received for, in my case, nearly 16 years. 
It will have a devastating impact to communities, such as those 
that are in your district. I am from--originally from your 
district, southeastern, Arizona, a small ranching community, 
and to remove that amount of disposal income that can be used 
in those areas would also have a devastating effect on those 
small towns and those small areas. We, flatly stated, we can't 
absorb that kind of a pay cut.
    Mr. Barber. Let me move to the second part of that. There 
was a study released not too long ago looking at 19 different 
Federal agencies, and an employee satisfaction study was done, 
and it found that Department of Homeland Security was 19 out of 
19. I think further investigation suggested that within the 
Department of Homeland Security, CBP was at the very bottom in 
terms of morale.
    Apart from this most recent impact, which is not what was 
studied back then, why is this happening? Why do we have such 
low morale in this very vital element of our Homeland Security 
Department?
    Mr. Judd. Part of the reason is, is some of the things that 
Mr. Winkowski said in his testimony. When he was talking about 
sequestration, he specifically focused on the inability to 
promote managers, the inability to move managers.
    The problem with our agency is they have always been 
management-focused. I don't know of another agency where you 
can point to a management rank-and-file structure where there 
is 1 to 4. That is what we have in our agency. In some places, 
it is a 1 to 3: One manager for every three agents. That is 
part of the reason why the morale is so low.
    The other part is we love our jobs. We absolutely love the 
work we do. We love securing the border, but when you have a 1 
to 3, 1 to 4 management-to-agent ratio, those managers are 
looking for things to do, and oftentimes it comes down to 
micromanaging. Micromanaging law enforcement will never work. 
That is a large part of the problem.
    Mr. Barber. I appreciate that. Let me just--I know my time 
is up, but I want to just put one other question on the record. 
You know, both of us are Arizonans, and I think one of the 
benefits that you bring to your position is that you know what 
we are dealing with in still one of the most porous sector of 
our Southwest Border. More than 50 percent of the drugs seized 
come right through our backyard, and your agents are there to 
try to prevent that. It is rugged terrain, conditions are 
harsh, temperatures are pretty severe. I know from talking to 
agents, that the dangers are around every single corner, 
whether it is a cartel group armed with AK-47s or a rip crew 
armed to the teeth trying to rip off the drugs of another group 
coming through, that rip crew was probably most likely 
responsible for the death of Agent Terry. The death of Rob 
Krentz, a rancher east of Douglas, was most likely the result 
of a cartel member who decided to kill a fifth-generation 
rancher.
    Please, if you could, from your own perspective as an agent 
who wore the uniform on the ground, talk to us a little bit 
about the dangers that you see, the challenges you see, and 
what these cuts would do to the ability of your--the men and 
women you represent to do their jobs and to secure the border.
    Mr. Judd. Chairman Duncan, you mentioned canines. I used to 
be a canine handler in Arizona. The canines are a phenomenal 
tool. The largest group of illegal aliens that I and my canine 
partner ever arrested by ourselves was a group of 66. That 
would have been impossible without that canine, but we spent 
over 4 hours tracking that group before we ended up catching up 
to them. It was in the middle of the day. It was right before 
the summertime. My canine is a German--was a German Shepherd, 
and that canine was absolutely exhausted at that time.
    With these cuts, we are looking at having less agents on 
the border at any given time. We are looking at less canines. 
We are looking at less resources. We cannot--without that 
canine, I wouldn't have been able to arrest that group of 66. 
We cannot deplete our workforce and expect our agents to be 
able to control and handle groups of 66 by themselves or even 
with two, with two agents. We need the agents in the areas on 
the ground to be able to control the large groups. We are 
starting to see those large groups starting to reenter Arizona 
right now as we speak.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Duncan. I tell you what, I will put the canines up 
against the technology I have seen any day of the week.
    The Chairman will recognize the gentleman from Texas for 5 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I want to thank Mr. Judd and Congressman Barber for 
organizing the briefing held yesterday to give Members of 
Congress and their staffs, their teams a better understanding 
of what you do, the agents that you represent, what their day-
to-day lives are, and how important it is to the security of 
our country, to the welfare of communities like El Paso, really 
any community in the United States. I want add that I 
appreciate what you and the membership that you represent do on 
a daily basis.
    Again, I said earlier in the last panel, we would not be 
the city we are but for the hard work that the men and women of 
the Border Patrol perform each and every day, and that is part 
of the reason we are the safest city in the United States 3 
years running, so thank you.
    One of the very constructive things that I heard yesterday 
from you was a proposal on how to better structure payment and 
salaries and compensation to the Border Patrol. In that same 
light, with that same attitude, you know, if our most important 
priority from the perspective of this committee, from DHS, from 
the Border Patrol is in securing our borders, if you were at 
the table with CBP leadership, how would you suggest that they 
prioritize and allocate resources in a time of sequester, in a 
time of budget uncertainty, or really any time for that matter? 
What is the best mix or allocation of resources, in your 
opinion and the opinion of your membership?
    Mr. Judd. Well, the first thing that you have to look at is 
you have to look at how are you going to get the best bang for 
your buck and how are you going to secure that border? That is 
the first thing that you have to look. That is your baseline. 
That is your baseline starting point.
    You have to begin with the agent. It is the agents that 
arrest the illegal aliens. It is not the drones. It is not the 
canines that arrest the illegal aliens. It is the agents that 
arrest the illegal aliens. We have to keep--Congress has 
mandated that we have 21,370 agents. With the cuts that they 
are talking about, they are talking about effectively reducing 
our workforce by about 5,000 agents. That is unacceptable. You 
are going to create holes in the borders.
    So that is the first place that you have to look at. You 
have to look at, how do we keep the agents in the field to 
allow border security? Then you start looking at cuts from 
there.
    Congressman O'Rourke, I can tell you, there are many, many 
places that we can make cuts. A couple years ago, looking at 
how much money the agency was spending on the camps, what we 
called forward-operating bases in Arizona, the agents came to 
me and made a proposal to me for an alternative work schedule 
that one of the Congressmen suggested that would have saved the 
Government nearly a million dollars per FOB. We currently have 
several FOBs. As we approached the agency and we gave them a 
PowerPoint showing them exactly--it was irrefutable. They 
agreed that the savings would have been there, and they still 
opted not to go with that.
    There are many places that we can make savings, and we have 
to look to those places. We have to make those cuts even if 
those cuts seem difficult at the time, but we--you have to look 
at the baseline, and the baseline are the agents. You must have 
them in the field to effect the arrests.
    Mr. O'Rourke. You know, I appreciate that, because that is 
a real specific area we can look at in addition to these FOBs 
and then looking at where you might trim in the face of 
sequester. Kind of along the lines of a question I asked the 
previous panel--Are there any larger projects that should 
receive additional scrutiny, perhaps well intentioned 
technology-based projects, I mentioned SBI earlier, and that is 
probably too easy to attack that one, that was a clear 
boondoggle and a poor investment by DHS, but anything like that 
right now that you or the agents you represent can point to 
that you say, you know, I don't know if this is the right way 
to go, or this is clearly not working, and we should stop 
investing in this?
    Mr. Judd. Absolutely. Several years ago, we used to be a--
our structure under INS was a region-based structure. INS 
answered to specific regions. Under DHS, they decided that this 
was not the most effective way to operate. It was ineffective 
to have to go to the regions and decide: How are we going to 
operate in this region? How are we going to operate in this 
region and this region?
    The agency has started to bring those back, those regions 
back with the Joint Field Command. They have been building new 
structures for the Joint Field Command, which are a complete 
and total waste of money. We have seen nothing come out of 
those joint field commands as far as an agent's perspective and 
how those--how that Joint Field Command has changed our job. 
So, absolutely, there are many places.
    The management upgrades they have just given. I can tell 
you back in 2004, the Naco Border Patrol station was the 
busiest Border Patrol station in the entire Nation. I served as 
a temp supervisor at that time. The temp supervisor at that 
time--the supervisor at that time, if they were assigned to 
control, were in charge of control, processing, and radio. Now 
we have three supervisors that are in charge of each 
individual, and we don't have near the traffic. So there are 
many places of fat that we can cut, and we need to first look 
at the Joint Field Command and the structures that they are 
currently building for those--for the Joint Field Command.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    Mr. Duncan. We have time for a second round if you want to 
expound on anything. Okay.
    Well, listen, I want to thank Mr. Judd for being here, your 
valuable testimony. I want to thank the Members of the 
committee for their questions today for both the panels.
    Members of the committee may have some additional questions 
for not only you, Mr. Judd, but Panel No. 1 as well, and we 
will ask all the witnesses to respond to these in writing. With 
no further questions and without objection, the subcommittee 
stands adjourned.
    Mr. Judd. Thank you.
    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
